    DEPARTMENT OF HOMELAND SECURITY

            Office of Inspector General
    <




              FEMA’s Preparedness for 

            the Next Catastrophic Disaster 





OIG-08-34                                March 2008
                                          March 28, 2008

                                               Preface

The Department of Homeland Security, Office of Inspector General, was established by the
Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of
our oversight responsibilities to promote economy, efficiency, and effectiveness within the
department.

This report addresses FEMA’s preparedness for the next catastrophic disaster. It is based on
interviews with employees and officials of relevant agencies and institutions, direct observations,
and a review of applicable documents.

It is our hope that this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this report.



                                       Richard L. Skinner 

                                       Inspector General 

Table of Contents/Abbreviations
Executive Summary .........................................................................................................................1 


Background ......................................................................................................................................4 


Results of Review ............................................................................................................................7 


           Overall Planning ..................................................................................................................8 


           Coordination and Support ..................................................................................................15 


           Interoperable Communications..........................................................................................19 


           Logistics.............................................................................................................................25 


           Evacuations ........................................................................................................................30 


           Housing ..............................................................................................................................34 


           Disaster Workforce ............................................................................................................39 


           Mission Assignments .........................................................................................................43 


           Acquisition Management ...................................................................................................48 


Conclusion and Recommendations................................................................................................53 


Management Comments and OIG Evaluation ...............................................................................54 


Appendices
           Appendix A:          Objectives, Scope, and Methodology............................................. 57 

           Appendix B:          Management Comments to the Draft Report ................................. 60 

           Appendix C:          Selected Reports ............................................................................. 78 

           Appendix D:          Major Contributors to This Report................................................. 79 

           Appendix E:          Report Distribution ......................................................................... 80

Abbreviations
CAP                   Contract Administration Plan
COTR                  Contracting Officer’s Technical Representative
CPD                   Community Preparedness Division
DHAP                  Disaster Housing Assistance Program
DHS                   Department of Homeland Security
DOD                   Department of Defense
DOJ                   Department of Justice
Table of Contents/Abbreviations 

eCAPS    Enterprise Coordination and Approvals Processing System
EMI      Emergency Management Institute
FCO      Federal Coordinating Officer
FEMA     Federal Emergency Management Agency
FY       Fiscal Year
GAO      Government Accountability Office
GAP      Gap Analysis Program
GPS      Global Positioning System
GSA      General Services Administration
HSPD-8   Homeland Security Presidential Directive-8
HUD      Department of Housing and Urban Development
IA-TAC   Individual Assistance Technical Assistance Contract
ICTAP    Interoperable Communications Technical Assistance Program
IT       Information Technology
IWN      Integrated Wireless Network
LIMS     Logistics Information Management System
MA       Mission Assignment
MAWG     Mission Assignment Working Group
MERS     Mobile Emergency Response Support
MRE      Meal, Ready-To-Eat (emergency meals)
NDHS     National Disaster Housing Strategy
NIMS     National Incident Management System
NLC      National Logistics Coordinator
NPD      National Preparedness Directorate
NRF      National Response Framework
NRP      National Response Plan
OAM      Office of Acquisition Management
OEC      Office of Emergency Communications
OIC      Office for Interoperability and Compatibility
OIG      Office of Inspector General
OMB      Office of Management and Budget
PFO      Principal Federal Official
P.L.     Public Law
RAMP     Remedial Action Management Program
SHCP     Strategic Human Capital Plan
TAV      Total Asset Visibility
USACE    U.S. Army Corps of Engineers
OIG 

Department of Homeland Security
Office of Inspector General


Executive Summary
                On July 31, 2007, the House Committee on Oversight and
                Government Reform held a hearing to review the Federal
                Emergency Management Agency’s (FEMA) preparedness to
                handle a future disaster. During that hearing, the Deputy Inspector
                General for Emergency Management Oversight testified that the
                “New FEMA” had made progress in many areas related to disaster
                preparedness, but that generally FEMA was not fully prepared for
                a catastrophic disaster. The Committee, in turn, requested that the
                Office of Inspector General (OIG) provide a high-level assessment
                of the Department of Homeland Security (DHS)/FEMA’s
                preparedness for the next catastrophic disaster.

                The primary objectives of our assessment were to identify key
                areas for preparing for a catastrophic disaster, and determine the
                progress FEMA has made in the key areas since Hurricane Katrina
                struck in August 2005.

                We reviewed pertinent reports, including those of our office and
                the Government Accountability Office (GAO), as well as
                congressional testimony. We identified nine key areas critical to
                successful catastrophic preparedness efforts. We collaborated with
                FEMA officials to identify two to five critical components within
                each key area. We interviewed FEMA officials and evaluated
                documents provided by them. We assessed FEMA’s progress in
                each of the areas using a four-tiered scale: substantial progress,
                moderate progress, modest progress, and limited or no progress.

                Given the scope and limitations of our review, we did not perform
                an in-depth assessment of each of the nine key preparedness areas.
                We used the critical components within each area, as well as our
                broader knowledge of the key preparedness areas, to gauge
                FEMA’s overall progress in those areas.

                Overall, FEMA has made moderate progress in five of the nine key
                areas, modest progress in three areas, and limited progress in one

                FEMA’s Preparedness for the Next Catastrophic Disaster 


                                        Page 1 

area (See Figure 1). FEMA officials said that budget shortfalls,
reorganizations, inadequate information technology systems, and
confusing or limited authorities negatively affected their progress.
We agree with FEMA. FEMA would also benefit from better
knowledge management and plans for sustaining initiatives that are
underway.

We are recommending that FEMA (1) conduct a comprehensive
“needs analysis” to determine where they are now and where they
need to be, as an agency, in terms of preparedness for a
catastrophic disaster; (2) develop and sustain a system for tracking
progress of programs, initiatives, and enhancements; and (3)
provide regular updates regarding progress on all major
preparedness initiatives and projects.




FEMA’s Preparedness for the Next Catastrophic Disaster 


                        Page 2 

Figure 1: Scorecard for Select FEMA Preparedness Areas

                                Key Preparedness Areas                                          Progress
 OVERALL PLANNING                                                                               Moderate
    • Develop a strategic framework and guidance for integration of prevention,                 Moderate
       response, and recovery efforts
    • Complete assessments of capabilities/readiness at the national/state/local levels         Modest
    • Enhance preparedness at all levels                                                        Moderate
    • Enhance community preparedness                                                            Moderate
    • Enhance preparedness for the management and resolution of catastrophic events             Moderate
 COORDINATION AND SUPPORT                                                                       Moderate
    • Implement the new National Response Framework and Specific Operational Plans              Modest
    • Clarify the roles, responsibilities, and authorities of the Principal Federal Official    Moderate
       and Federal Coordinating Officer
    • Provide law enforcement access to FEMA records                                            Substantial
 INTEROPERABLE COMMUNICATIONS                                                                   Moderate
    • Achieve coordination among all DHS components charged with improving                      Modest
       interoperable communications
    • Ensure federal disaster communications assets and operating procedures are in             Moderate
       place for disaster response and recovery
    • Manage federal interoperable communication grants and programs                            Moderate
 LOGISTICS                                                                                      Moderate
    • Establish total asset visibility                                                          Moderate
    • Improve pre-positioning of commodities                                                    Moderate
 EVACUATIONS                                                                                    Modest
    • Develop Gap Analysis Program                                                              Moderate
    • Enhance Gulf Coast Mass Evacuation Capability                                             Substantial
 HOUSING                                                                                        Modest
    • Establish a National Disaster Housing Strategy                                            Modest
    • Develop plans to purchase, track, and dispose of temporary housing units                  Modest
    • Strengthen state and local commitment to house affected citizens                          Modest
 DISASTER WORKFORCE                                                                             Modest
    • Adopt a Strategic Human Capital Plan, including specific strategies for the               Moderate
       development of a surge capacity disaster workforce
    • Manage the disaster workforce consistent with the Strategic Human Capital Plan            Modest
       and integrate workforce management tracking systems
 MISSION ASSIGNMENTS                                                                            Limited
    • Improve guidance for mission assignments (i.e., regulations, policies, and                Modest
       operating procedures)
    • Improve staffing and training                                                             Limited
    • Enhance management of mission assignments                                                 Limited
 ACQUISITION MANAGEMENT                                                                         Moderate
    • Have pre-disaster contracts in place                                                      Moderate
    • Recruit, train, and retain sufficient acquisition staff                                   Moderate
    • Provide for post-award oversight                                                          Modest

Note: The summary ratings of progress for the nine key areas are based on our assessments of the critical
components listed, as well as our broader knowledge of the areas. FEMA officials generally agreed that
these critical components are among the most important, and we believe they are strong indicators
of overall progress.


                          FEMA’s Preparedness for the Next Catastrophic Disaster

                                                  Page 3
Background
             In responding to emergency situations, whether natural or man-
             made, current doctrine dictates that government agencies and
             organizations most local to the situation act as first responders.
             When state and local governments become overwhelmed by the
             size or scope of the disaster, state officials may request assistance
             from the federal government; so federal agencies must always be
             prepared to provide support when needed. President Carter issued
             an executive order in 1979 merging many of the separate disaster-
             related federal functions and creating FEMA. Following the
             terrorist attacks of September 11, 2001 (9/11), the Homeland
             Security Act of 2002 (P.L. 107-296) (Homeland Security Act)
             realigned FEMA and made it part of the newly formed Department
             of Homeland Security (DHS).

             FEMA’s statutory authority comes from the Robert T. Stafford
             Disaster Relief and Emergency Assistance Act, as amended (P.L.
             100-707) (Stafford Act), which was signed into law in 1988 and
             amended the Disaster Relief Act of 1974 (P.L. 93-288). To access
             federal assistance under the Stafford Act, states must make an
             emergency or major disaster declaration request that is reviewed
             by FEMA for presidential approval. The Stafford Act also permits
             FEMA to anticipate declarations and pre-stage federal personnel
             and resources when a disaster threatening human health and safety
             is imminent, but not yet declared.

             Hurricane Katrina, which made landfall on August 29, 2005, was
             the Nation’s most costly natural disaster, killing more than 1,800
             people, destroying 300,000 Gulf Coast homes, and displacing
             about 1 million people. It is estimated that Hurricane Katrina
             caused over $81 billion in damages. Another proxy for the
             magnitude of the storm is FEMA’s budget during Fiscal Years
             (FY) 2005 and 2006. Figure 2 reflects FEMA’s budgetary
             resources from FY 2004 to FY 2007.

             Reports issued by Congress, the White House, federal Offices of
             Inspector General, and GAO, among others, identified issues
             including questionable leadership decisions and capabilities,
             organizational failures, overwhelmed response and
             communications systems, and inadequate statutory authorities, as
             contributors to the poor response. In the wake of Hurricane
             Katrina, it became clear that FEMA’s efforts to support state and
             local emergency management and to prepare for federal response

             FEMA’s Preparedness for the Next Catastrophic Disaster 


                                     Page 4 

Figure 2: FEMA’s Budgetary Resources, Fiscal Years 2004 through 2007



       Dollars in Billions
 90

 80
 70

 60

 50
 40

 30

 20
 10

  0
              2004                       2005                  2006                   2007
                                                 Fiscal Year


      Source: DHS Annual Financial Report Data. Budgetary resources include unobligated balances
      carried forward; recoveries of prior year obligations; current year budget authority; and non-
      expenditure transfers.



                             and recovery in natural disasters were insufficient for an event of
                             such catastrophic magnitude.

                             As a result, Congress enacted a number of changes to enhance the
                             federal government’s response capabilities for emergency
                             management. In total, six statutes enacted by the 109th Congress
                             contain changes that apply to future federal emergency
                             management actions. While most of the laws contained relatively
                             few changes to federal authorities related to emergencies and
                             disasters, the Post-Katrina Emergency Management Reform Act of
                             2006, (P.L. 109-295, Title VI – National Emergency Management,
                             of the Department of Homeland Security Appropriations Act of
                             2007) (Post-Katrina Act) contained many changes that have long-
                             term consequences for FEMA and other federal entities. That
                             statute reorganizes FEMA, expands its statutory authority, and
                             imposes new conditions and requirements on the operations of the


                         FEMA’s Preparedness for the Next Catastrophic Disaster

                                                 Page 5
                                                            agency. Figure 3 shows the structure of the reorganized “New
                                                            FEMA.”

           Figure 3: FEMA Organization

                                                                                         Office of the
                                                                                           Office      Administrator
                                                                                                   of the Administrator
                                                                                           Administrator
                                                                                     Administrator
                                                                                                 –
                                                                               Dep. Administrator/Chief Operating OfficerE. Johnson
                                                                                                              – Harvey




                            Gulf Coast Recovery     Law Enforcement        Office of Policy and               Executive Secretariat         Office of External Affairs     Associate DeputyDeputy
                                                                                                                                                                                  Associate
                            Associate Deputy          Advisor to the         Prog.
                                                                           Prog.    Analysis
                                                                                 Analysis                       Exec. Exec.
                                                                                                                      Secretary
                                                                                                                            Secretary               Director
                                                                                                                                                          Director          Administrator
                                                                                                                                                                                  Administrator
                             Administrator            Administrator              Director
                                                                             Director                                  Elizabeth Edge               Jonathan Thompson                 Bob Shea
                                                                           Marko Bourne




                                                                                                                                                                         Region I-
                                                                                                                                                                                 Regions I – X –
                                                                                                                                                                         Region II Steven Kempf -
                                                                                                                                                                                Administrators
                                                                                                                                                                         Region III
                                                                                                                                                                                  – Jon Sarubbi
                                                                                                                                                                                              – Administrator
                                                                                                                                                                         Region IV - Major P. May-
                                                                                                                                                                         Region V- Ed Buikema - Administrator
           Office of of
                     Equal Rights      Office of Chief Financial    Office of of
                                                                              Management                 Office of Chief Counsel            National Capital Region      Region VI- William Peterson
             Office     Equal Rights                                   Office    Management                 Office  of Chief Counsel          National Capital Region
                  Director
                   Director                    Officer
                                                 Officer           Director/Chief Acquisition                 Chief  Counsel
                                                                                                                 Chief  Counsel                  Coordination
                                                                                                                                                  Coordination
                                                                                                                David Trissell                     Director
                                                                                                                                                     Director
               Pauline Campbell          Margaret“ Peggy” Young            Deirdre Lee
                                                                                                                                                   Chris Geldart




       Logistics
        Logistics    Disaster Assistance                 Disaster
                                                           Disaster           Grant Programs             National
                                                                                                          National               United States Fire              National
                                                                                                                                                                    National             Mitigation
                                                                                                                                                                                           Mitigation
      Management
       Management         Assistant
                            Assistant                   Operations
                                                          Operations             Assistant
                                                                                  Assistant           Preparedness
                                                                                                         Preparedness             Administration
                                                                                                                                    Administration               Continuity
                                                                                                                                                                  Continuity              Assistant
                                                                                                                                                                                            Assistant
       Assistant
        Assistant       Administrator
                          Administrator                   Assistant
                                                           Assistant           Administrator
                                                                                Administrator            Deputy
                                                                                                           Deputy                    Assistant
                                                                                                                                       Assistant                 Programs
                                                                                                                                                                   Programs             Administrator
                                                                                                                                                                                          Administrator
     Administrator
       Administrator                                    Administrator
                                                          Administrator             Lisa Lewis        Administrator
                                                                                                         Administrator            Administrator                  Assistant
                                                                                                                                                                    Assistant            David Maurstad
      William“Eric”                                      Glenn Cannon                Acting             Denis Schrader                                          Administrator
                                                                                                                                                                  Administrator
         Smith                                                                                                                                                  MarthaRainville


Source: FEMA. Dotted lines are coordination. Solid lines are command and control.




                                                          FEMA’s Preparedness for the Next Catastrophic Disaster 


                                                                                                  Page 6 

Results of Review
               We assessed the progress that FEMA has made to improve the
               following elements of its catastrophic disaster preparedness
               initiatives:

                    •   Overall Planning;
                    •   Coordination and Support;
                    •   Interoperable Communications;
                    •   Logistics;
                    •   Evacuations;
                    •   Housing;
                    •   Disaster Workforce;
                    •   Mission Assignments; and
                    •   Acquisition Management.

               Overall, FEMA has made moderate progress in five of the nine key
               areas, modest progress in three areas, and limited progress in one
               area. FEMA officials said that budget shortfalls, reorganizations,
               inadequate information technology (IT) systems, and confusing or
               limited authorities negatively affected their progress. We agree
               with FEMA. FEMA would also benefit from better knowledge
               management and plans for sustaining initiatives that are underway.

               FEMA is spending millions of dollars on new initiatives and
               enhancements to its disaster management systems. These
               initiatives are critical to enhancing FEMA’s ability to better
               respond to disasters, but it is not clear that they are well-planned or
               integrated. It is also not clear that FEMA’s top management
               effectively communicates a vision and plans for these initiatives to
               staff or that there is clear ownership and accountability for each
               initiative.

               FEMA is making progress in transforming itself to be better
               prepared to lead the federal effort in responding to a catastrophic
               disaster. FEMA can build upon this progress by continuing to
               develop the nine key areas discussed in this report.




              FEMA’s Preparedness for the Next Catastrophic Disaster 


                                      Page 7 

Overall Planning 





     Background
          Homeland Security Presidential Directive-8 “National Preparedness”
          (HSPD-8) was issued on December 17, 2003. HSPD-8 established
          “policies to strengthen the preparedness of the United States to prevent
          and respond to threatened or actual domestic terrorist attacks, major
          disasters, and other emergencies by requiring a national domestic all-
          hazards preparedness goal [bold added], establishing mechanisms for
          improved delivery of Federal preparedness assistance to State and local
          governments, and outlining actions to strengthen preparedness capabilities
          of Federal, State, and local entities.”

          The National Preparedness Guidelines (Guidelines) were released in
          September 2007. The Guidelines contain four primary elements:

                      •   National Preparedness Vision;
                      •   National Planning Scenarios;
                      •   Universal Task List; and
                      •   Target Capabilities List.

          The National Preparedness Vision, as set forth in the Guidelines, is: “A
          nation prepared with coordinated capabilities to prevent, protect against,
          respond to, and recover from all hazards in a way that balances risk with
          resources and need.”



                 FEMA’s Preparedness for the Next Catastrophic Disaster 


                                         Page 8 

       The “New FEMA,” specifically the National Preparedness Directorate
       (NPD), is responsible for using the Guidelines to ensure that the Nation is
       prepared for the next disaster, whether natural or manmade.

       We reviewed five critical areas in Overall Planning in which FEMA, led
       by NPD, is focusing its efforts to respond to the next disaster:

       •	 Develop a strategic framework and guidance for integration of
          prevention, response, and recovery efforts
       •	 Complete assessments of capabilities/readiness at the
          national/state/local levels
       •	 Enhance preparedness at all levels
       •	 Enhance community preparedness
       •	 Enhance preparedness for the management and resolution of
          catastrophic events


Develop a strategic framework         Complete assessments of         Enhance preparedness at all
       and guidance                    capabilities/readiness                  levels




                                                      Enhance preparedness for the management
         Enhance community preparedness
                                                        and resolution of catastrophic events




Critical Components
       Develop a strategic framework and guidance (Moderate) – NPD is charged
       with developing a single, strategic framework for integration of
       prevention, response, and recovery efforts of FEMA’s various offices and
       programs. The strategic framework and guidance under development are
       based on HSPD-8, but officials said they currently have to work from
       “dozens of different national strategies and directives.” Reconciling


                FEMA’s Preparedness for the Next Catastrophic Disaster 


                                        Page 9 

multiple sources of guidance hinders achieving “strategic coherence,” i.e.,
coherence among peer strategic documents or generations of documents.

However, FEMA does consider grants one area of growing success in
using strategic guidance to steer the use of federal funds toward the
National Preparedness Vision. NPD officials said they are seeing results
in states’ investments of core capabilities.

Complete assessments of capabilities/readiness (Modest) – NPD is
currently working to conduct assessments of capabilities and readiness at
the national, state, and local levels, but the “assessment problem” is
complex. NPD said the assessment task was understated in HSPD-8. The
comprehensive state assessment effort currently underway is unique, and
according to NPD officials, questions remain about how to collect the
right information without undue burden on the states.

NPD officials said that the assessment they are prototyping (a self-
assessment) is only one of four components of a comprehensive
assessment. Three additional elements are necessary: peer reviews,
compliance monitoring, and exercise/corrective action programs. FEMA
officials did not say when any of these three remaining elements might be
implemented.

NPD finished testing a prototype assessment in December 2007.
Conducting the assessments nationwide will require coordination,
especially among federal, state, local, and tribal governments, and the
private sector. NPD officials said that performing nationwide assessments
will be expensive and will require dedicated program support and funding.

The office with principal responsibility for the assessments has a small
budget and no separate appropriation, and it did not receive the level of
staffing requested. NPD has tried to leverage its funding by augmenting
its own staff with working groups and contractors, and programs such as
the DHS Science & Technology Centers of Excellence and the Homeland
Security Institute. NPD officials said that their past progress was affected
by:

   •	 Not having all of the people involved with National Preparedness
      efforts in one place within the DHS organizational structure;
   •	 Friction between FEMA and the former DHS Preparedness 

      Directorate; and 

   •	 Disruption of their analytical resources.



       FEMA’s Preparedness for the Next Catastrophic Disaster 


                              Page 10 

                   The preparedness realignment prompted by the Post-Katrina Act has
                   consolidated preparedness activities, and NPD officials said they believe
                   they are now on the path to achieving unity of effort.

                   Enhance preparedness at all levels (Moderate) – NPD officials said that
                   while there is a long history of recovery and response planning, the
                   preparedness and protection mission areas are just being built, and these
                   areas and their preparedness requirements are still being defined. The
                   challenge is mostly cultural; for example, federal efforts focus primarily
                   on planning for low probability but high consequence events, e.g., a
                   catastrophic hurricane; while state, local, and tribal efforts tend to focus on
                   events that are more probable but are usually not as damaging, e.g., local
                   flooding or auto accidents. The National Response Framework (NRF)
                   stresses the important balance between these two planning structures.
                   NPD is currently revising a guide for state and local emergency planning,
                   coordinating with core groups and other agencies to plan for a range of
                   potential events.

                   The NRF, which is intended to guide all-hazards response, was issued on
                   January 22, 2008, with an effective date of March 22, 2008. Officials said
                   that in response to criticism that the first draft excluded stakeholders’
                   concerns, the drafting process was made more inclusive. More than 4,000
                   individuals participated in briefings, conferences, and training; and
                   hundreds of agencies and individuals provided suggestions for changes.

                   In working to enhance preparedness, NPD officials face both budget and
                   staffing challenges. The directorate faces an approximately one-quarter
                   vacancy rate, attributable to the temporary effect of realignment and
                   significant workforce attrition. NPD officials said they have the necessary
                   authorities and policies, but they lack the resources to get the job done.

                   Enhance community preparedness (Moderate) – Since 9/11, there has been
                   increased recognition of the role citizens play in protecting the homeland
                   and supporting first responders. After Hurricane Katrina, the White House
                   recommended that “DHS should make citizen and community
                   preparedness a National priority.” 1 Implementation of National Priority 8,
                   “Community Preparedness: Strengthening Planning and Citizen
                   Capabilities,” is the responsibility of the Community Preparedness
                   Division (CPD) of the NPD. Three of CPD’s community preparedness
                   initiatives are:

                       •   Assessing and strengthening community preparedness;


1
    The Federal Response to Katrina: Lessons Learned (The White House, February 2006), p. 121.

                           FEMA’s Preparedness for the Next Catastrophic Disaster 


                                                  Page 11 

                      •	 Leading strategic coordination and integration of community
                         preparedness efforts; and
                      •	 Initiating partnerships for preparedness research.

                 A primary goal of CPD is to ensure that community preparedness is
                 included in a consistent way in policy, guidance, training, and exercises.
                 Officials said that while the inclusion of citizen preparedness as a National
                 Priority was a significant step, this is an ongoing challenge that requires
                 actively seeking out “points of cooperation” and educating DHS and
                 FEMA staff on the significant value of community preparedness and
                 planning.

                 Key to the effort of coordinating and integrating community preparedness
                 efforts is the Citizen Corps program. Citizen Corps was launched in 2002
                 and has grown to include a nationwide network of over 2,300 state,
                 territorial, tribal, and local Councils. CPD is tasked with coordinating the
                 Citizen Corps initiative at the federal level. Specific efforts underway
                 include developing and providing national guidance, tools, and training for
                 Citizen Corps Councils to support community preparedness and resiliency;
                 and strengthening the National Citizen Corps Council.

                 As with the other areas, budget and staffing affect the success of CPD’s
                 efforts. The office is very small and has a very lean budget. Additionally,
                 long delays in getting Office of Management and Budget (OMB) approval
                 for data collection have hindered state and local data collection and
                 research efforts.

                 Another challenge is that multiple offices within DHS have responsibility
                 for elements of community preparedness and partnerships with non-
                 governmental entities. Perhaps as an outgrowth of the previous separation
                 of preparedness functions within DHS, other offices develop and support
                 related preparedness education for individuals and preparedness planning
                 activities for communities. For example, the Ready campaign 2 is
                 coordinated by the DHS Office of Public Affairs, there is a Center for
                 Faith-Based and Community Initiatives in FEMA, and a Private Sector
                 Office in both FEMA and DHS. Some officials said it might be more
                 effective to place the responsibility for all community preparedness and
                 nongovernmental partnership efforts in a single office.



2
  According to a DHS Fact Sheet, Ready, a national public service advertising campaign launched in
February 2003, is “designed to educate and empower Americans to prepare for and respond to emergencies
including natural disasters and potential terrorist attacks. The goal of the campaign is to get the public
involved and ultimately to increase the level of basic preparedness across the nation.”

                         FEMA’s Preparedness for the Next Catastrophic Disaster 


                                                 Page 12 

                 Enhance preparedness for the management and resolution of catastrophic
                 events (Moderate) – NPD officials discussed several planning efforts
                 underway that will enhance preparedness for catastrophic events,
                 including in the Gulf Coast, Florida, the New Madrid seismic zone, and
                 Tier 1 Urban Areas. NPD is responsible for enhancing preparedness
                 through catastrophic planning, but the Disaster Operations Directorate is
                 carrying out the actual planning efforts, with input from FEMA’s Disaster
                 Assistance and Mitigation Directorates. The Florida and New Madrid
                 efforts are the largest of the initiatives. The Florida effort focuses on a
                 catastrophic hurricane striking Southern Florida – a “notice” event; and
                 the New Madrid effort plans for a catastrophic earthquake along the New
                 Madrid fault – a “no-notice” event.

                 FEMA has made and is making significant progress. The primary
                 problem, in our opinion, is that the planning efforts discussed above are
                 very geocentric. For example, the Florida effort may put that state and
                 region in a much better position should a hurricane strike, but if the next
                 catastrophic hurricane hits some other major region along the Gulf or
                 Atlantic coast, it will not be of much help. Disaster Operations officials
                 said that the plans are not very transferrable among jurisdictions; however,
                 they also said that these planning efforts can provide a foundation for
                 additional planning.

        Continuing Concerns
                 Planning is the foundation of FEMA’s preparedness efforts, yet budget
                 and staffing shortfalls and continuing reorganizations across FEMA
                 hamper progress. FEMA does not yet have a strategic plan guiding NPD
                 efforts, which would help in prioritizing needs and ensuring that efforts
                 are well-planned and executed. 3 Additionally, the expense of conducting
                 state assessments may prevent their completion.

                 Given that individual citizens’ preparedness can greatly enhance or
                 hamper response, community preparedness planning should receive
                 adequate funding and staff, and be better integrated into planning
                 programs. Consideration should also be given to whether all community
                 and individual preparedness programs should be coordinated by a single
                 office in DHS or FEMA.




3
  We received a draft document from DHS entitled “Integrated Planning System” (Draft Version 1.4) just
prior to finalizing this report; however, it is labeled a “Pre-Decisional Working Paper” that is not yet
finalized.

                         FEMA’s Preparedness for the Next Catastrophic Disaster 


                                                 Page 13 

OIG Planned Work and Areas for Continuing Oversight
     In 2008, we plan to review the development of FEMA’s plans, policies,
     and procedures that will be used to prepare for, respond to, and recover
     from a disaster. This will include the ongoing development and
     implementation of the NRF and its annexes, efforts to enhance community
     preparedness, and further catastrophic planning.

     For this and all other areas covered in the report, we are prepared to
     deploy to Joint Field Offices to provide independent and objective advice
     to FEMA officials and to identify, document, and review potential FEMA
     and state disaster management problems and issues.




           FEMA’s Preparedness for the Next Catastrophic Disaster 


                                  Page 14 

Coordination and Support 





    Background
         Following the terrorist attacks of September 11, 2001, efforts were
         undertaken to develop a national planning framework for emergency
         management. The result of this effort was the creation of the National
         Response Plan (NRP). The purpose of the NRP was to establish a
         comprehensive, national, all-hazards approach to domestic incident
         management across a spectrum of activities including prevention,
         preparedness, response, and recovery. In May 2005, when DHS released
         the NRP, it superseded the Federal Response Plan, U.S. Government
         Domestic Terrorism Concept of Operations Plan, and Federal Radiological
         Emergency Response Plan.

         In August 2005, the NRP was used in response to Hurricane Katrina, but it
         fell far short of the seamless, coordinated effort that had been envisioned
         at its creation. Problems ranging from poor coordination of federal
         support, to confusion about the roles and authorities of incident managers,
         to inadequate information sharing among responders all plagued the
         response to this catastrophic disaster. Of particular concern was confusion
         about the respective roles, responsibilities, and authorities of the Principal
         Federal Official (PFO) and the Federal Coordinating Officer (FCO).

         To assess FEMA’s readiness to respond to a future catastrophic disaster,
         we assessed efforts to:


                FEMA’s Preparedness for the Next Catastrophic Disaster 


                                       Page 15 

           •	 Implement the new NRF and Specific Operational Plans
           •	 Clarify the roles, responsibilities, and authorities of the PFO and FCO
           •	 Provide law enforcement access to FEMA records in support of
              Emergency Support Function - 13 (ESF-13), Public Safety and
              Security



Implement the new NRF and      Clarify the roles, responsibilities,   Provide law enforcement access
 Specific Operational Plans     and authorities of the PFO and             to FEMA records
                                              FCO




  Critical Components
           Implement the new National Response Framework and Specific
           Operational Plans (Modest) – A revised NRP incorporating lessons
           learned from the 2005 hurricane season was released 9 months after
           Hurricane Katrina, with additional revisions issued several months later.
           In September 2006, DHS initiated another revision process of both the
           NRP and the National Incident Management System (NIMS). FEMA
           officials said they reviewed several thousand comments on the newly
           named National Response Framework prior to releasing it on January 22,
           2008. However, FEMA’s National Advisory Council was not established
           in time to have meaningful input into the development of the NRF.

           As part of the National Preparedness Guidelines, DHS developed 15
           National Planning Scenarios to establish the range of response
           requirements to facilitate preparedness planning. However, FEMA
           officials said that operational plans, which build on the National Planning
           Scenarios and govern the response to disasters, have not been finalized.
           FEMA officials told us the DHS Operations Coordination Directorate has
           responsibility for strategic level planning, whereas FEMA coordinates
           interagency and intergovernmental concept of operations (CONOPS) and
           operational planning. The NRF describes interoperability and
           collaboration as a critical aspect of successful response planning.

           Clarify the roles, responsibilities, and authorities of the Principal Federal
           Official and Federal Coordinating Officer (Moderate) – According to the
           recently released NRF, the Secretary of Homeland Security is the PFO

                   FEMA’s Preparedness for the Next Catastrophic Disaster 


                                           Page 16 

                  responsible for management of domestic incidents, and the FEMA
                  Administrator is the principal advisor to the President, the Secretary of
                  Homeland Security, and the Homeland Security Council on all matters
                  regarding emergency management. The Secretary may elect to designate
                  a single individual to serve as PFO to ensure consistency of federal
                  support as well as the overall effectiveness of the federal incident
                  management. According to the NRF, for Stafford Act incidents, upon the
                  recommendation of the FEMA Administrator and the Secretary of
                  Homeland Security, the President appoints an FCO to coordinate federal
                  support in response to and recovery from emergencies and major
                  disasters. 4 The FCO represents the FEMA Administrator in the field to
                  discharge all FEMA responsibilities for response, recovery and mitigation
                  programs.

                  FEMA officials said that they are confident the NRF clarifies the role of
                  the PFO. FEMA said, “… the PFO, as the Secretary’s personal
                  representative, provides the Secretary with real-time situational awareness
                  concerning the overall status of the incident, the involvement of Federal
                  departments and agencies across all mission areas, and the level of
                  coordination among senior Federal officials, and officials of state, local,
                  territorial, and tribal governments, nongovernmental organizations, and
                  the media. The PFO can make the Secretary aware of any coordination
                  breakdowns that may require intervention by executive officials of federal
                  departments and agencies, and assist in elevating issues of national
                  priority or with national policy implications to interagency bodies charged
                  with addressing those matters.” 5

                  While FEMA officials stressed their confidence in the PFO/FCO
                  clarification, there has been little time to assess whether the clarification is
                  well understood by emergency management practitioners and other
                  stakeholders. It will take additional exercises or an actual disaster before
                  we will know for certain whether the roles are sufficiently clarified and
                  understood in the field.

                  Provide law enforcement access to FEMA records (Substantial) –
                  Immediately after Hurricane Katrina, concerns were raised about data
                  sharing between law enforcement agencies and FEMA. Months after
                  Hurricane Katrina made landfall, DHS and the Department of Justice
                  (DOJ) executed an agreement providing law enforcement officials direct
                  access to FEMA disaster recovery assistance files for fraud investigations.

4
  The provision of the Stafford Act regarding appointment of the FCO reads, “immediately upon his 

declaration of a major disaster or emergency, the President shall appoint a Federal coordinating officer to

operate in the affected area.” 

5
  Written response from FEMA’s National Preparedness Directorate, received November 28, 2007. 


                          FEMA’s Preparedness for the Next Catastrophic Disaster 


                                                   Page 17 

     In January 2007, DHS and DOJ executed an access agreement for the
     purpose of locating missing children displaced due to disasters. Recently,
     FEMA officials said that a third agreement was executed with the United
     States Marshals Service, which grants limited access to disaster assistance
     records for the purposes of locating sex offenders and apprehending
     fleeing felons in the aftermath of a disaster. FEMA said that establishing
     protocols, procedures, and processes with DOJ to improve data access and
     information sharing is 75% complete.

Continuing Concerns
     The operational plans that govern the federal response to a disaster are
     incomplete or have not been adequately reviewed or tested. Also, a single
     planning system has not been finalized to ensure the integration of
     strategic, concept, and operational planning across all levels of national
     preparedness.

OIG Planned Work and Areas for Continuing Oversight
     In FY 2008, we will continue to review FEMA readiness and assess its
     capabilities to respond to the next catastrophic disaster. We plan to
     determine to what extent FEMA has assessed its capabilities to respond to
     a catastrophic disaster and how it has used its readiness goals and
     performance measures in the process. We will also review FEMA’s
     Remedial Action Management Program (RAMP) to determine to what
     extent FEMA is using RAMP to implement lessons learned from disasters
     and exercises, which will include a focus on communications and
     information sharing.




           FEMA’s Preparedness for the Next Catastrophic Disaster 


                                  Page 18 

Interoperable Communications 





    Background
         Hurricane Katrina caused significant damages and outages to the entire
         telecommunications infrastructure in the Gulf region, seriously delaying
         reporting and coordination, and consequently affecting the efficiency and
         effectiveness of response efforts. Communication among those
         responding to a disaster is an essential element of a successful response
         and recovery effort, yet it is generally recognized that the inability to
         communicate effectively was one of the major impediments to Hurricane
         Katrina response efforts. The National Commission on Terrorist Attacks
         Upon the United States (9-11 Commission) had previously identified
         interoperable communications between emergency responders as a major
         challenge.

         Subsequent to Hurricane Katrina, numerous reports and recommendations
         identified a wide range of necessary corrective actions related to
         interoperability, ranging from improved planning to coordination between
         all levels of government and the private sector to operational
         enhancements, such as technological improvements emphasizing wireless
         communications. The President’s National Security Telecommunications
         Advisory Committee reported in January 2007 that interoperability
         challenges recognized after 9/11 and Hurricane Katrina included a lack of
         interoperable equipment at the tactical level, ineffective use of available
         communications assets caused by poor resource planning, and an overall
         lack of integrated command structures to enable interoperability.



                FEMA’s Preparedness for the Next Catastrophic Disaster 


                                       Page 19 

      Multiple components within DHS and FEMA have roles and
      responsibilities for improving interoperable communications, which is a
      vital element of disaster response. Also, the duties of the FEMA
      Administrator, as described in the NRF and Post-Katrina Act, include
      preparation for all-hazard incidents and helping ensure the acquisition of
      operable and interoperable communications capabilities by federal, state,
      local, and tribal governments and emergency response providers. We
      assessed the following critical areas:

      •	 Achieve coordination among all DHS components charged with
         improving interoperable communications
      •	 Ensure federal disaster communications and operating procedures are
         in place for disaster response and recovery
      •	 Manage federal interoperable communication grants and programs

   Achieve coordination among           Ensure federal disaster               Manage federal
       all DHS components             communications assets and         interoperable communication
                                        procedures are in place             grants and programs




Critical Components
      Achieve coordination among all DHS components charged with
      improving interoperable communications (Modest) – Actions taken by
      DHS to improve disaster response communications and interoperability
      involved a major reorganization of DHS components charged with
      advancing communications interoperability. DHS must achieve
      coordination among all its components, including FEMA, charged with
      improving interoperable communications, especially with respect to
      planning and establishing lines of authority, roles, and responsibilities, if
      success is to be achieved. However, currently there is no single entity to
      coordinate the ongoing interoperability activities and initiatives.

      DHS established the Office of Emergency Communications (OEC) to
      support “the Secretary of Homeland Security in developing,
      implementing, and coordinating interoperable and operable
      communications for the emergency response community at all levels of


             FEMA’s Preparedness for the Next Catastrophic Disaster 


                                    Page 20 

                  government.” 6 OEC assumed three major programs from other DHS
                  components:

                      •	 The wireless communications programs under the Integrated
                         Wireless Network (IWN);
                      •	 The Interoperable Communications Technical Assistance Program
                         (ICTAP); and
                      •	 Aspects of the SAFECOM 7 program.

                  OEC’s goal is to better integrate DHS’ emergency communications
                  planning, preparedness, protection, crisis management, and recovery
                  capabilities, including attainment of interoperable and emergency
                  communications nationwide.

                  The Command Control and Interoperability Division, within DHS’
                  Science and Technology Directorate, retained responsibilities for research
                  and development, testing and evaluation, and standards for the SAFECOM
                  program through the Office for Interoperability and Compatibility (OIC).
                  Other programs for which OIC had responsibility were transferred to other
                  DHS components. FEMA is responsible for administering interoperability
                  grants and training. The overarching challenge is to achieve coordination
                  among all of these programs and offices to foster advancement and avoid
                  duplicating efforts.

                  The Post-Katrina Act required the development of a National
                  Communications Baseline Assessment to identify needed capabilities of
                  first responders, assess current capabilities, identify gaps and obstacles,
                  and establish a national interoperable emergency communications
                  inventory. OEC is currently conducting this assessment.

                  DHS officials told us the National Communications Baseline Assessment
                  would provide the first comprehensive assessment of emergency
                  communications capabilities, including operability and interoperability,
                  across all levels of government. This assessment is intended to
                  incorporate information from the federal perspective, to show the full
                  scope and scale of interoperable emergency communications nationwide.
                  The final assessment and recommendations are expected in May 2008 and
                  will be used to develop the National Emergency Communications Plan.



6
  http://www.dhs.gov/xabout/structure/gc_1189774174005.shtm.

7
  SAFECOM is a DHS program to provide “research, development, testing and evaluation, guidance, tools, 

and templates on interoperable communications-related issues to local, tribal, state, and federal emergency 

response agencies” (http://www.safecomprogram.gov/SAFECOM/). 


                          FEMA’s Preparedness for the Next Catastrophic Disaster 


                                                  Page 21 

It is important to note that although technological improvements are
important, cultural issues related to coordination and cooperation among
emergency responders, and standard operating procedures and guidelines,
are an equal or greater challenge.

FEMA is developing disaster emergency communications policies and
procedures to facilitate effective emergency management, operability, and
interoperability during catastrophic events. However, achieving effective
coordination among all DHS components specifically charged with
improving interoperable communications remains difficult. Each
organization continues to operate independently within the limits of its
own authorities established during the DHS reorganization. According to
the Post-Katrina Act, the FEMA Administrator shall provide federal
leadership necessary to prepare for, protect against, respond to, recover
from, or mitigate against a natural disaster, act of terrorism, or other man-
made disaster. However, FEMA officials said they need specific authority
to coordinate with and direct DHS components providing emergency
communications during disasters to achieve substantial progress in this
critical area.

Ensure federal disaster communications assets and operating procedures
are in place (Moderate) – FEMA officials said there is a renewed
commitment to make emergency communications a core competency of
the agency. The Disaster Operations Directorate is responsible for disaster
interoperable communications, including tactical and operational
functions, such as those provided by the Mobile Emergency Response
Support (MERS). MERS provides mobile telecommunications, life and
operational support, and power generation required for the onsite
management of response activities. MERS capabilities are being
enhanced to provide assistance to a wider geographic area and assist with
the restoration of disaster area communications within 96 hours. It is
anticipated that Incident Response Vehicles with expanded
communications capabilities will be available in each of FEMA’s 10
regions. FEMA continues to work with state, local, and tribal entities on
interoperability plans, available equipment, and multi-jurisdictional
interoperability.

FEMA officials said that the agency has hosted or participated in a number
of conferences and exercises to share technological resources and
knowledge, and practice interoperability across the full spectrum of
disaster response operations using deployable systems of partner
organizations and first responders. FEMA also has created the Disaster
Emergency Communications Division and intends to be an informed and


       FEMA’s Preparedness for the Next Catastrophic Disaster 


                              Page 22 

                 engaged advocate for disaster emergency communications issues and the
                 communications needs of emergency responders.

                 Manage interoperable communication grants and programs (Moderate) –
                 From FY 2003 through FY 2006, DHS awarded approximately $2.9
                 billion in grants to enhance state and local interoperable communications
                 efforts. An additional $1 billion will be distributed through the Public
                 Safety Interoperable Communication Grant Program.

                 There are no fewer than 10 federal interoperability initiatives underway. 8
                 In light of the importance of interoperability and such large expenditures
                 to strengthen it, the effective management of federal interoperability
                 grants and programs is essential.

        Continuing Concerns
                 A number of outstanding issues regarding interoperable communications
                 need to be addressed. First, a number of DHS components have specific
                 roles and responsibilities for improving interoperability, yet there is no
                 single mechanism in place to link and orchestrate the numerous programs
                 and initiatives underway, nor is there a clear line of accountability.
                 Second, OEC is currently operating with a skeletal, full-time equivalent
                 staff. OEC has assumed a large portion of responsibilities and programs
                 directed at improving interoperable communications, and it requires
                 additional staff and an adequate budget. Completion of the National
                 Communications Baseline Assessment, incorporation of federal
                 interoperability into SAFECOM, and the acquisition of additional MERS
                 and Incident Response Vehicles are outstanding issues that need to be
                 addressed before the next catastrophic disaster.

        OIG Planned Work and Areas for Continuing Oversight
                 OIG will conduct an inspection to determine how effectively FEMA and
                 the National Protection and Programs Directorate coordinate challenges
                 with respect to overlapping or shared responsibilities. We also plan to
                 review OneNet, a single network that DHS is deploying to support
                 interoperability and data sharing, to determine DHS’ progress in
                 consolidating its networks onto OneNet to achieve operational efficiencies

8
 Interoperability programs and initiatives include: Statewide Communications Interoperability Planning
Methodology; Regional Communications Interoperability Pilots; RapidCom 1; Interoperability Continuum;
SAFECOM Grant Guidance; Statement of Requirements for Emergency Response Communications;
Public Safety Architecture Framework; Standards Acceleration for Interoperable Communications; Tactical
Interoperable Communications Plans; Public Safety Interoperable Communication Grant Program; and,
Emergency Support Function-2, Communications.

                         FEMA’s Preparedness for the Next Catastrophic Disaster 


                                                Page 23 

and cost savings. We initiated an audit in January 2008 to determine the
extent to which FEMA effectively manages grant resources to provide
sufficient financial and programmatic monitoring of all grants, including
interoperability grants.




      FEMA’s Preparedness for the Next Catastrophic Disaster 


                             Page 24 

Logistics





     Background
             In April 2007, as part of the FEMA reorganization, logistics was elevated
             from a branch to a directorate-level program office – the Logistics
             Management Directorate. Logistics is the agency’s major program office
             responsible for logistics policy, guidance, standards, execution, and
             governance of logistics support, services, and operations. Its mission is to
             effectively plan, manage, and sustain the national logistics response and
             recovery operations, in support of domestic emergencies and special
             events. Logistics is organized around four core competencies:

                •   Logistics Operations;
                •   Logistics Plans and Exercises;
                •   Distribution Management; and
                •   Property Management.

             In times of domestic disasters, FEMA’s logistics responsibilities include
             acquiring, receiving, storing, shipping, tracking, sustaining, and
             recovering commodities, assets, and property.

             Logistics’ ability to track commodities is one of the keys to fulfilling its
             mission. The disasters of 2004 and 2005 highlighted FEMA’s lack of
             standardized policies and procedures, as well as inconsistencies stemming
             from multiple, independent computer and paper-based systems that
             generated incompatible tracking numbers not readily crossed-referenced.
             During Hurricane Katrina, FEMA largely relied on the Logistics
             Information Management System (LIMS) for property management, and

                    FEMA’s Preparedness for the Next Catastrophic Disaster 


                                           Page 25 

           manual spreadsheets and paper processes, telephones, faxes, and emails to
           track and gain visibility over commodities movements.

           FEMA management is focused on improving the logistics core
           competencies to a level that will effectively and efficiently respond to a
           catastrophic disaster. We reviewed two critical areas to gain a sense of
           FEMA’s progress in efforts to:

           •   Establish total asset visibility (TAV)
           •   Improve pre-positioning of commodities


       Establish total asset visibility                     Improve pre-positioning of
                                                                  commodities




Critical Components
           Establish total asset visibility (Moderate) – After the 2004 hurricane
           season, FEMA recognized a need for an improved TAV program. At the
           time Hurricane Katrina struck, however, the TAV program was not fully
           tested. Prior to 2004, FEMA had invested in multiple systems to support
           its unique inventory needs, but they were not well integrated, often
           overlapping and duplicating efforts.

           At the end of 2004, FEMA initiated the TAV concept and system, which
           incorporated an automated system to improve visibility via Global
           Positioning System (GPS) tracking technology, to give FEMA visibility
           over the supply chain from inventory to delivery. FEMA planned to roll
           out the pilot TAV system (Phase 1) in 2005, but this was delayed when
           Hurricane Katrina struck, and the roll-out did not occur until February
           2006. Currently, the TAV system is able to track the movement of more
           than 200 types of assets and commodities, with a primary focus on the
           “Big 8” commodities: water, emergency meals (MREs), blue roof plastic
           sheeting, tarps, cots, blankets, temporary housing units, and emergency

                  FEMA’s Preparedness for the Next Catastrophic Disaster 


                                          Page 26 

                  generators. However, FEMA personnel said that there are many gaps in
                  the system. The current TAV system capability integrates a suite of
                  systems to provide order visibility, order management, and in-transit
                  visibility. FEMA is using the TAV system at FEMA headquarters and all
                  10 regions, plus a warehouse management system at distribution centers in
                  Atlanta, Georgia and Fort Worth, Texas.

                  FEMA personnel said that two of the primary challenges to improving the
                  TAV system are retaining a sufficient amount of staffing and overcoming
                  TAV user resistance from the field. Officials said that field resistance is
                  being addressed by increasing communications throughout FEMA and by
                  providing role-based training. 9

                  Improve pre-positioning of commodities (Moderate) – The specific type
                  and quantity of commodities and support assets that the public will need in
                  the aftermath of a disaster or other incident varies, but emergency
                  response experience indicates some common needs. These include water
                  (usually bottled), MREs, cots, blankets, tarps, and emergency generators.
                  Typically, state and local governments meet their initial citizens’ needs for
                  common commodities, but when state and local governments’ capabilities
                  are exceeded, the state may request FEMA’s assistance. FEMA personnel
                  said they did have supplies pre-positioned during the 2005 hurricane
                  season, but the quantities were insufficient and delivery was not timely.

                  In preparation for the 2006 hurricane season, FEMA pre-deployed more
                  than 1,000 tractor-trailers containing disaster response supplies to
                  hurricane prone states. The pre-deployment was undertaken despite the
                  knowledge that some supplies were at risk, especially perishable items
                  stored in non-temperature-controlled trailers in extreme heat. After the
                  2006 hurricane season, Logistics reevaluated and modified its pre-
                  positioning planning and strategy for the 2007 season. Logistics estimated
                  that to pre-position commodities in the 11 hurricane prone states alone
                  would cost $357 million. 10 FEMA has determined through in-depth
                  analysis that pre-positioning commodities is not logistically prudent nor an
                  effective use of taxpayer funds. Instead, FEMA is increasing its emphasis
                  on identifying alternatives for meeting support requirements in a timely
                  manner by strengthening relationships with public and private sector
                  partners such as the Defense Logistics Agency (DLA), U.S. Army Corps

9
  In a separate audit being conducted by our office, auditors were told by FEMA field staff that “resistance” 

stems from the TAV system not meeting their functional requirements. Field staff said that they were 

optimistic about TAV and anxious to use it, but the system needs further development before it will 

perform as necessary without requiring augmentation from other systems. 

10
   This figure includes estimated costs for commodities in Regions I, II, III, IV, and VI, and transportation

costs in Regions IV and VI. 


                          FEMA’s Preparedness for the Next Catastrophic Disaster 


                                                   Page 27 

     of Engineers (USACE), American Red Cross, and General Services
     Administration (GSA). It has set a goal to support 1 million people and
     20,000 federal responders within 72 hours of a “no-notice” event.
     Interagency agreements are expected to provide FEMA with MREs, fuel,
     ice, medical supplies, water, cots, blankets, tarps, and heavy equipment.

     In an effort to develop a more responsive, flexible, and sustainable supply
     chain management strategy, Logistics established a Distribution
     Management Strategy Working Group. The Working Group has begun to
     galvanize the national logistics response partner community and is
     developing and documenting an integrated national policy and strategy for
     managing and controlling inventory, strategic positioning, and distribution
     of critical commodities, resources, equipment and services. The Working
     Group will support Logistics as the National Logistics Coordinator (NLC),
     which will collaborate with other federal agencies such as GSA,
     Department of Defense (DOD), DLA, Department of Health and Human
     Services, USACE, and Department of Agriculture, in addition to public
     and private sector partners, nongovernmental organizations, and other
     stakeholders, ensuring a fully coordinated and effective service and
     support capability. A NLC kick-off forum is scheduled for the end of
     March 2008 to develop a mission statement, discuss ongoing logistics
     challenges, and form integrated working subgroups to identify and
     develop solutions.

Continuing Concerns
     Logistics has made progress in a number of areas but still needs to develop
     standardized policies and procedures, effective internal controls, and
     sufficient funding and resources.

OIG Planned Work and Areas for Continuing Oversight
     Our work plan for FY 2008 includes reviews on the extent of
     improvements made in logistics management since Hurricane Katrina and
     what additional changes are needed, including how FEMA will:

        •   Determine what is needed and where it is needed;
        •   Coordinate requirements with state and local governments;
        •   Coordinate with federal agencies and other response organizations;
        •   Identify the best sources for needed resources;
        •   Track deliveries;
        •   Maintain adequate logistics staffing;
        •   Communicate throughout the logistics process; and

            FEMA’s Preparedness for the Next Catastrophic Disaster

                                   Page 28
   •   Evaluate and report on their performance.

We also are planning an audit to determine the effectiveness of FEMA’s
plans and approaches to reengineering its disaster-related logistics
processes and improving the capabilities for supporting IT systems.




       FEMA’s Preparedness for the Next Catastrophic Disaster 


                              Page 29 

Evacuations 





     Background
          Initial responsibility for the evacuation of individuals from disaster areas
          lies with state and local government. However, when state and local
          emergency management systems become overwhelmed, an affected state,
          through the authorities provided by the Stafford Act, may request
          assistance from FEMA. This assistance may include the reimbursement of
          costs incurred by the state or may include direct assistance such as
          providing buses, trains, and air ambulances for evacuation. In the
          aftermath of hurricanes Katrina and Rita, it became apparent the federal
          government might need to put resources into place proactively when state
          and local governments delay or are unable to request assistance.
          According to one FEMA official, the agency is now working to better
          position itself to provide “accelerated federal assistance” to respond to a
          disaster. FEMA is also working with state and local officials to identify
          shortcomings in existing evacuation plans and find ways to mitigate those
          shortcomings prior to a disaster.

          There is no one office at FEMA responsible for federal evacuation
          planning and operational efforts. Responsibility spans several
          directorates, including Logistics, Disaster Operations, and Disaster
          Assistance, as well as the Office of Acquisition Management. For this
          reason, it was difficult to gain a clear picture of FEMA’s progress in
          preparing for a future disaster in the area of evacuations.




                 FEMA’s Preparedness for the Next Catastrophic Disaster 


                                        Page 30 

     We gathered information on several specific planning initiatives underway
     in the area of evacuations. Catastrophic planning initiatives were
     discussed above in the section on Overall Planning. We also reviewed the
     following specific initiatives:

     •	   Develop Gap Analysis Program (GAP)
     •	   Enhance Gulf Coast Mass Evacuation Capability Enhancement
          Initiative


          Gap Analysis Program                          Gulf Coast Mass Evacuation
                                                      Capability Enhancement Initiative




Critical Components
     Develop Gap Analysis Program (Moderate) – GAP, which began in
     February 2007, focuses on gathering information needed to ensure
     operational readiness at the local, state, and federal levels. It serves as the
     starting point for planning efforts, beginning at the local level and working
     up through the states, to FEMA regions, and then to FEMA Headquarters
     entities. The first iteration of the GAP, conducted in 18 states, was
     completed in preparation for the 2007 hurricane season. It focused on
     seven critical areas where needs of citizens must be addressed in the first
     72 hours after a disaster: mass evacuation, sheltering, interim housing,
     fuel distribution, commodities distribution, debris removal, and medical
     needs. Interoperable communications was considered for inclusion, but it
     was left out because this area is being covered by different assessment
     efforts. For the 2008 assessment, officials decided to drop interim housing
     since it is not actually necessary in the first 72 hours, and they added
     search and rescue.

     While the first iteration of GAP was completed in time for the 2007
     hurricane season, officials recognized that there might be inaccuracies in
     the data. FEMA officials said some states may have downplayed their
     assets and capabilities, thinking this would qualify them for additional
     federal funding. Other states may have overstated their assets and

             FEMA’s Preparedness for the Next Catastrophic Disaster 


                                    Page 31 

capabilities, not wanting it known that they were not well prepared.
Regardless of data accuracy, officials said they believe the GAP
succeeded in prompting many state and local officials to think about their
own response strategies and their expectations of assistance from other
governmental entities.

Besides providing data on state and local capabilities, officials said GAP is
helping to build trust between local, state, and federal partners. GAP is
also helping officials at all levels of government to identify options, as
well as manage expectations for what assistance other governmental
entities will be able to provide to them. FEMA officials stated that, in the
past, some states saw FEMA as a “department store,” in that they could
expect to get what they needed, when they needed it. GAP gives FEMA
officials a better idea of what preparations state and local governments
have made, what assets they have, and where additional assistance might
be needed. With needs identified, FEMA can tap into its interagency
partners to arrange additional assistance.

Officials indicated that GAP is a high priority in the budget but, as with
other initiatives, more money, people, and time are needed. A lack of
funding, which results in a lack of staffing, has slowed down the
completion of the first round of GAP analyses for all states. Officials said
they have the authority they need to carry out the GAP analyses, but they
expressed frustrations in the area of IT. They do not have a dedicated IT
staff for GAP, and they have been told they must use in-house IT support
even though they believe they could get better IT support, including better
analysis tools, by using a contractor.

Enhance Gulf Coast Mass Evacuation Capability Enhancement Initiative
(Substantial) – The Gulf Coast Mass Evacuation Capability Enhancement
Initiative was a structured program, carried out between April 2007 and
July 2007, that targeted the Gulf Coast region’s (excluding Florida)
evacuation needs. Hurricane Katrina demonstrated a number of
evacuation challenges, including ensuring adequate transportation for
evacuees, ensuring other states’ willingness to accept evacuees, and
coordinating resources, including buses and other modes of transportation,
to ensure that localities were not relying on the same resources in their
individual evacuation plans.

A FEMA team, comprising Region IV and Region VI personnel, and
supplemented with contractors, worked with state officials in states that
might need to evacuate citizens and in states that might be in a position to
host evacuees, to determine where and how citizens would be moved. The
goal was to develop an organized plan for evacuating states and to have

       FEMA’s Preparedness for the Next Catastrophic Disaster 


                              Page 32 

     state-to-state agreements in place for transporting and sheltering evacuees.
     For example, Louisiana and Alabama came to agreement on how they
     would handle evacuees between the two states. An important by-product
     of the initiative was starting a dialogue with and between states to discuss
     their planning shortcomings and how states could help one another.

     Since the initiative was a one-time planning effort that is now complete,
     the responsibility for continuing the planning process will fall to FEMA’s
     regional offices. For planning to proceed from the FEMA Headquarters
     level, additional funding would be necessary. This initiative merits the
     rating of substantial progress; however, despite repeated requests, FEMA
     has not yet provided us with the final report, i.e., briefing slides, on this
     project. Consequently, we cannot opine with certainty that this initiative
     met its intended results.

Continuing Concerns
     The two programs highlighted above have helped FEMA in assessing
     evacuation needs and enhancing evacuation planning. However, adequate
     funding for continuing evacuation planning is an issue. Additionally,
     because of the multiple offices and disciplines involved in evacuation
     planning, FEMA should establish a single entity to take “ownership” of
     overall evacuation planning and implementation.

     Of the FEMA officials we spoke with, only one senior leader articulated
     an overall strategy for coordinating federal evacuation efforts across
     directorates, but no documentation was provided to support this claim of
     coordination. FEMA provided the Mass Evacuation Incident Annex to the
     NRF, but this document is still in draft and has not been finalized.
     Recognizing the span of responsibility across directorates/offices, FEMA
     needs an overarching strategic plan if federal evacuation efforts are to be
     successful.

OIG Planned Work and Areas for Continuing Oversight
     We plan to continue to review FEMA’s evacuation policies, plans, and
     procedures as they are developed. Of particular interest will be the final
     version of the Mass Evacuation Incident Annex to the NRF and the
     evacuee tracking system being developed. We plan to review FEMA’s:

        •   Plans for mass care operations;
        •   Development of a new National Sheltering System; and
        •   Coordination plans for mass evacuations.


            FEMA’s Preparedness for the Next Catastrophic Disaster 


                                   Page 33 

Housing 





           Background
                   After a Presidential disaster declaration, FEMA leads the federal response
                   by coordinating federal resources to support local, tribal, and state
                   governments and voluntary agencies in providing housing to those
                   displaced by a disaster. One of the major criticisms of FEMA after
                   Hurricane Katrina focused on FEMA’s inability to provide immediate,
                   short-term housing assistance to evacuees, and then transition those still in
                   need to more permanent forms of housing.

                   In any major disaster, such as Hurricane Katrina, the availability of hotels,
                   motels, and other rental units for disaster victims within a reasonable
                   commute is very limited due to damage to these facilities and the need to
                   house victims, as well as recovery workers. Housing assistance for
                   disaster victims may include factory-built, semi-permanent, or permanent
                   construction housing, 11 including handicapped-accessible housing; rental,
                   repair, or replacement assistance; loan assistance; and referrals and access
                   to other sources of housing assistance. According to FEMA, the National
                   Disaster Housing Strategy (NDHS) will help guide future disaster housing
                   assistance, but during the time of our review this document was still in
                   draft.

                   We reviewed three critical components to assess FEMA’s progress in
                   efforts to:


11
     The Post-Katrina Act allows for semi-permanent and permanent construction.

                           FEMA’s Preparedness for the Next Catastrophic Disaster 


                                                  Page 34 

       •	 Establish a National Disaster Housing Strategy
       •	 Develop plans to purchase, track, and dispose of temporary housing
          units
       •	 Strengthen state and local commitment to house affected citizens

   Establish a National Disaster 	    Develop plans to purchase,          Strengthen state and local
        Housing Strategy                 track, and dispose of              commitment to house
                                       temporary housing units                affected citizens




Critical Components
       Establish a National Disaster Housing Strategy (Modest) – When
       Hurricane Katrina struck the Gulf Coast region, there were not adequate
       plans in place at the federal, state, or local level to deal with the
       unprecedented movement of displaced evacuees or to provide sheltering or
       transitional housing on the scale required after this catastrophic disaster.
       According to FEMA officials, FEMA began assisting states in catastrophic
       disaster planning in 1998, but did not follow through with the effort due to
       a lack of sufficient funding at both the federal and state levels.
       Furthermore, the NRP, which guided the response to Hurricane Katrina,
       did not explicitly address catastrophic disaster housing plans.

       The Post-Katrina Act requires FEMA to develop, coordinate, and maintain
       an NDHS. According to FEMA, the NDHS, which is intended to
       complement and support the NRF, will convey national guidance,
       operating principles, and a vision for public (federal, state, tribal, local),
       private, and nonprofit cooperation in providing disaster-housing
       assistance. It will also define the roles, programs, authorities, and
       responsibilities of all entities involved, detailing shared responsibilities
       and emphasizing the cooperative efforts required to provide disaster-
       housing assistance. While catastrophic housing is to be addressed by the
       NDHS, FEMA officials said that there is a lack of adequate funding and
       resources to test the strategy once it has been finalized.

       At the time of our review, the draft NDHS was still being reviewed,
       coordinated, and refined among FEMA and its interagency partners. The
       lack of a comprehensive disaster housing strategy could have a significant


               FEMA’s Preparedness for the Next Catastrophic Disaster 


                                      Page 35 

                 impact on FEMA’s ability to meet housing needs for disaster victims in a
                 future catastrophic disaster.

                 Develop plans to purchase, track, and dispose of temporary housing units
                 (Modest) – FEMA has traditionally relied primarily on two housing
                 options for evacuees: rental units and manufactured housing (mobile
                 homes and travel trailers). Despite having purchased thousands of
                 temporary housing units in the past 2 years, FEMA still lacks clear plans
                 on how to speedily put these units in place to house evacuees. FEMA
                 officials said that they are now attempting to take specific corrective
                 actions to improve how they use their housing options. 12

                 Under FEMA’s Recovery (Interim) Policy 1003, FEMA will establish an
                 annual baseline inventory for fully mission-capable temporary housing
                 units, including travel trailers and mobile homes. This policy will guide
                 FEMA in maintaining a sufficient inventory of temporary housing units to
                 meet an immediate demand after a declared disaster. For calendar year
                 2007, the inventory baseline was set at 13,500 units. The inventory levels
                 are to be adjusted annually. In FY 2008, it is FEMA’s goal to have three
                 to five indefinite delivery/indefinite quantity contracts in place for
                 commercial production of housing units. These units will be built based
                 on FEMA’s specifications and standards, and will include units that
                 comply with Uniform Federal Accessibility Standards for people with
                 disabilities. FEMA’s new specifications for housing units are intended to
                 ensure that new units are designed and constructed to emit limited levels
                 of formaldehyde that are well below industry and Department of Housing
                 and Urban Development (HUD) standards, and units will be tested to
                 ensure they meet these specifications. 13

                 FEMA officials said they are continuing to make improvements to the
                 Individual Assistance Technical Assistance Contracts (IA-TAC), which
                 are used when needed to support FEMA’s housing mission after a disaster.
                 FEMA’s goal for the most recent IA-TAC contracts is to have a more
                 comprehensive pre-disaster contract in place that will better address
                 accountability, quality assurance, and tracking. FEMA officials said there
                 is much work to be done in developing pre-disaster contracts for
                 procurement of housing units and in developing an agency-wide strategy

12
   During our review, the Centers for Disease Control and Prevention and FEMA released the preliminary
results of the testing for formaldehyde in travel trailers and mobile homes. The results indicate that
unacceptable levels of formaldehyde were detected in both types of units. The FEMA Administrator stated
“We [FEMA] will not ever use trailers again.” We plan to review FEMA’s current use of travel trailers and
mobile homes, as well as their progress in developing alternative strategies for housing evacuees.
13
   Due to the recent developments on mobile homes and travel trailers, FEMA may modify this housing
policy.

                         FEMA’s Preparedness for the Next Catastrophic Disaster 


                                                Page 36 

     for disposing of housing units. Logistics currently expends significant
     resources storing units that may never be used again because there is no
     clear disposition strategy in place.

     FEMA’s Joint Housing Solutions Group has been actively working to
     review and assess new, innovative forms of temporary alternative housing,
     to determine whether any can be used to assist in a catastrophic disaster
     environment.

     Strengthen state and local commitment to house affected citizens (Modest)
     In the wake of Hurricane Katrina, a number of local communities were
     very reluctant, or even directly refused, to accept FEMA mobile home and
     travel trailer group sites in their communities. In some cases, state or local
     governments agreed to temporary housing sites, but then reversed their
     decision after housing installation had begun. Each time this happened,
     FEMA was further delayed in housing disaster victims and incurred
     additional costs.

     FEMA’s current Mass Sheltering and Housing Assistance strategy to
     support catastrophic housing needs starts with exploiting all available
     existing rental or vacant household dwellings in the affected area, then
     expanding outward into other jurisdictions or states. FEMA, in
     conjunction with HUD, is developing a HUD-FEMA Housing Portal.
     This portal will provide housing information in a consolidated format
     accessible to disaster victims and FEMA housing staff to assist individuals
     and families in finding rental housing following a Presidentially declared
     disaster. However, FEMA still lacks some of the resources necessary to
     successfully and expediently execute the strategy, and many states have
     restricted the number of out-of-state evacuees they are willing to accept,
     potentially restricting access to otherwise available housing units. FEMA
     housing officials said that the absence of universal acceptance by state and
     local governments for contingency housing missions will inhibit an
     optimal response.

Continuing Concerns
     While FEMA is striving to improve its disaster housing assistance strategy
     and coordination, it needs to develop and test new and innovative
     catastrophic disaster housing plans to deal with large-scale displacement
     of citizens for extended periods. Traditional housing programs for non-
     traditional disaster events have been shown to be inefficient, ineffective,
     and costly. The FEMA Administrator has stated that FEMA will never
     use trailers again. This raises concerns about how FEMA plans to


            FEMA’s Preparedness for the Next Catastrophic Disaster 


                                   Page 37 

     temporarily house disaster victims for future disasters when hotels, motels,
     and other rental units are often unavailable due to damage.

     In July 2007, FEMA entered into an interagency agreement with HUD to
     administer the Disaster Housing Assistance Program (DHAP). The DHAP
     provides temporary housing assistance, by means of a monthly rent
     subsidy, to eligible families displaced by hurricanes Katrina and Rita.
     Under the interagency agreement, HUD will act as the servicing agent for
     this program. FEMA needs to carefully monitor the services provided by
     HUD and the costs associated with them.

     FEMA needs to improve communications with state and local
     governments and other agencies with respect to disaster housing
     assistance, particularly with respect to what assistance FEMA can be
     expected to provide after a disaster. FEMA also needs to improve the
     program guidance for state and local governments.

OIG Planned Work and Areas for Continuing Oversight
     We are currently reviewing how well FEMA is managing its housing
     program transition efforts, what role other federal agencies should have in
     transitional housing, and whether FEMA has devised a road map for
     transitioning disaster victims from transitional housing sites to more
     permanent types of housing. We also are concluding a review that
     examined to what extent FEMA’s transitional housing program met the
     needs of hurricane victims.

     Additionally, we plan reviews of other FEMA housing-related activities,
     such as strategies for addressing persistent transitional housing issues, to
     what extent FEMA is using its Remedial Action Management Program to
     implement lessons learned from Hurricane Katrina and other disasters, the
     efficacy of the Emergency Housing Unit Program, and duplication of
     benefits under the disaster housing home repair grant assistance program.




            FEMA’s Preparedness for the Next Catastrophic Disaster 


                                   Page 38 

Disaster Workforce 





     Background
          The need for a trained, effective disaster workforce is one issue mentioned
          consistently in reports regarding FEMA’s response to Hurricane Katrina.
          FEMA’s disaster workforce consists mainly of reservists who serve
          temporarily during a disaster with no employee benefits. FEMA struggled
          to provide adequate numbers of staff in response to Hurricane Katrina and
          did not have the automated support needed to deploy over 5,000 disaster
          personnel on short notice. New hires did not receive adequate training
          during FEMA’s accelerated orientation process, and FEMA lacked a
          central training records management system. The shortage of qualified
          staff for key positions responding to Hurricane Katrina negatively
          impacted the effectiveness of FEMA’s response and recovery operation.

          The Post-Katrina Act provides for the rebuilding of FEMA’s permanent
          and reserve workforces through tools such as a strategic human capital
          plan, structured career paths, and recruitment and retention bonuses. The
          Post-Katrina Act also requires a plan to establish and implement a surge
          workforce, including an adequate number of properly trained personnel to
          meet specific response-team capabilities.

          As FEMA and DHS have evolved, the disaster workforce structure and
          systems have not kept pace. Since 1992, FEMA has initiated 12 studies to
          look at the use and structure of its disaster workforce; however, FEMA
                FEMA’s Preparedness for the Next Catastrophic Disaster 


                                       Page 39 

     has not implemented the recommendations from any of those studies. In
     FY 2006, FEMA obligated over $2 million for another examination of its
     disaster workforce, to remedy problems in three major areas: workforce
     structure, automated workforce management systems, and training and
     credentialing. This initiative resulted in a report entitled “FEMA: A New
     Disaster Reserve Workforce Model,” dated September 30, 2007. FEMA
     is in the planning stages of implementing recommendations from this
     study.

     We reviewed two critical areas identified as weaknesses after Hurricane
     Katrina to assess FEMA’s efforts to:

     •	 Adopt a Strategic Human Capital Plan, including specific strategies for
        the development of a surge capacity disaster workforce
     •	 Manage the disaster workforce consistent with the Strategic Human
        Capital Plan and integrate workforce management tracking systems to
        deploy, train, and credential disaster workforce employees


                                                  Manage the disaster workforce consistent
   Adopt a Strategic Human                         with the Strategic Human Capital Plan
         Capital Plan                              and integrate workforce management
                                                              tracking systems




Critical Components
     Adopt a Strategic Human Capital Plan, including specific strategies for the
     development of a surge capacity disaster workforce (Moderate) – FEMA
     has been criticized by both GAO and our office for not having a Strategic
     Human Capital Plan (SHCP). FEMA outsourced the preparation of this
     plan and expected to deliver it to Congress in December 2007. FEMA
     officials said that the disaster surge workforce capacity planning
     requirements of the Post-Katrina Act will be addressed through the work
     of a separate contractor. To its credit, FEMA met its goal of increasing
     permanent, full-time staff to 95% of allowed on-board level by June 2007,
     hired a new Human Capital Director and Deputy Director, and began a
     project to optimize the Human Capital Division. However, more work
            FEMA’s Preparedness for the Next Catastrophic Disaster 


                                   Page 40 

     remains, including finalizing the SHCP and ensuring that newly hired staff
     are fully trained.

     Manage the disaster workforce consistent with the Strategic Human
     Capital Plan and integrate workforce management tracking systems
     (Modest) – In December 2006, FEMA hired a contractor to develop a new
     disaster reserve workforce model to support FEMA’s vision of being the
     Nation’s preeminent emergency management agency. The contractor’s
     report, entitled “FEMA: A New Disaster Reserve Workforce Model,”
     makes recommendations for structuring the disaster workforce and lays
     out a roadmap for accomplishing the recommendations. One significant
     recommendation is to establish a director-level office, the FEMA Office of
     Reserves, to improve the effectiveness and efficiency of professional
     operations and to drive integrated efforts from an agency-wide
     perspective. The study also discusses realigning and reducing FEMA’s
     disaster cadres from 23 to 9.

     The study recommends:

        •	 Establishing clear lines of authority and responsibility within a
           new Office of Reserves;
        •	 Providing employee benefits to disaster workforce reservists;
        •	 Increasing training and credentialing funds; and
        •	 Creating consolidated systems to track the deployment and training
           of the disaster workforce.

     FEMA has assigned a Project Management Officer to determine the
     feasibility of implementing these and other recommendations, including
     establishing a FEMA Office of Reserves.

     Most of these recommendations are not new. FEMA has historically been
     slow to implement effective change for its disaster workforce. FEMA has
     already studied this problem 12 times but did not implement
     recommendations from any of the previous studies. FEMA said that a
     lack of funding is the reason for its inability to implement previous
     recommendations.

Continuing Concerns
     FEMA has not taken advantage of two relatively quiet hurricane seasons
     since Hurricane Katrina to make needed changes to its Disaster
     Workforce. FEMA reports that it does not have the budget, staffing,
     policies, authorities, or IT needed to implement the corrective actions.
     Indeed, if the sweeping disaster workforce changes recommended a

           FEMA’s Preparedness for the Next Catastrophic Disaster 


                                  Page 41 

     number of times by Congress, GAO, our office, and FEMA contractors are
     to be made, adequate funding must be provided to ensure the success of
     recommended actions. Some of the recommended changes also will
     require legislative action to amend the Stafford Act.

     FEMA has not completed 18 of the 36 corrective actions (50%) that it
     agreed to take in response to disaster workforce-related recommendations
     in our FY 2006 report, “A Performance Review of FEMA’s Disaster
     Management Activities in Response to Hurricane Katrina.” All but one of
     the incomplete actions originally had target completion dates before June
     2007.

     FEMA also has not completed or could not verify the completion of six of
     nine workforce-related actions required by the Post-Katrina Act. The six
     incomplete or unconfirmed actions are:

         •	 Developing a Strategic Human Capital Plan;
         •	 Establishing career paths;
         •	 Conferring with state, local, and tribal government officials when
            selecting Regional Administrators;
         •	 Training regional strike teams as a unit and equipping and staffing
            these teams;
         •	 Implementing a surge force capacity plan; and
         •	 Providing a report describing progress towards integrating LIMS,
            the Automated Deployment Database, and the National
            Emergency Management Information System.

     The congressionally mandated due dates for these actions ranged from
     March 2007 through July 2007.

OIG Planned Work and Areas for Continuing Oversight
     We are currently completing work on a follow-up audit of six disaster
     workforce-related recommendations in our FY 2006 report, “A
     Performance Review of FEMA’s Disaster Management Activities in
     Response to Hurricane Katrina.” This audit also includes an evaluation of
     FEMA’s progress in complying with the disaster workforce-related
     requirements in the Post-Katrina Act.




           FEMA’s Preparedness for the Next Catastrophic Disaster 


                                  Page 42 

Mission Assignments 




                            Modest Progress               Moderate Progress




                                                                          Substantial Progress
         Limited or No
           Progress




    Background
         FEMA is responsible for coordinating the urgent, short-term emergency
         deployment of federal resources to address immediate threats and for
         stewardship of the associated expenditures from the Disaster Relief Fund.
         FEMA uses mission assignments (MA) to request disaster response
         support from other federal agencies. Past audits and reviews regarding
         MAs have concluded that FEMA’s management controls were generally
         not adequate to ensure:

               •	 Deliverables (missions tasked) met requirements;
               •	 Costs were reasonable;
               •	 Invoices were accurate;
               •	 Federal property and equipment were adequately accounted for or
                  managed; and
               •	 FEMA’s interests were protected.

         MA policies, procedures, training, staffing, and funding have never been
         fully addressed by FEMA, creating misunderstandings among federal
         agencies concerning operational and fiduciary responsibilities. FEMA
         guidelines regarding the MA process, from issuance of an assignment
         through execution and close-out, are vague.

         In early 2006, FEMA began working with DOD and other federal agencies
         to improve the MA process and also launched an interagency MA training
         program. The Emergency Management Institute (EMI) offers an MA

                    FEMA’s Preparedness for the Next Catastrophic Disaster 


                                              Page 43 

                   orientation course and an introductory course on MA processing, and is
                   currently developing an online independent study course that presents an
                   overview of the MA process.

                   In November 2007, FEMA initiated an ambitious project to re-engineer
                   the processes, relationships, and resources involved in managing MAs.
                   Reflecting upon lessons learned from Hurricane Dean, the California
                   wildfires, and TOPOFF-4, 14 FEMA’s Disaster Operations Directorate
                   formed an intra/interagency Mission Assignment Working Group
                   (MAWG) to review MA processes and procedures and develop
                   recommendations for the management of MAs. The effort focused on
                   meeting the goals of FEMA’s FY 2008-2013 Strategic Plan issued in draft
                   in November 2007, complying with congressional mandates, and
                   responding to various audits and studies. It is anticipated that the review,
                   development, and implementation of these improvements will be
                   completed by June 2008.

                   We reviewed three critical components to assess FEMA’s efforts to:

                   •	 Improve guidance for mission assignments, i.e., regulations, policies,
                      and operating procedures
                   •	 Improve staffing and training
                   •	 Enhance management of mission assignments


Improve guidance for Mission            Improve staffing and training                  Enhance management of
       Assignments                                                                      Mission Assignments




          Critical Components
                   Improve guidance for mission assignments, i.e., regulations, policies, and
                   operating procedures (Modest) – The MAWG’s Strategic Plan identifies
                   the goal of having new policies, procedures, training materials, and

  14
     Top Officials (TOPOFF) is the nation’s premier terrorism preparedness exercise, involving top officials
  at every level of government, as well as representatives from the international community and private
  sector.

                            FEMA’s Preparedness for the Next Catastrophic Disaster 


                                                    Page 44 

                recommended revisions to federal regulations and possibly legislation
                completed by the beginning of hurricane season 2008. The MAWG has
                focused much of its attention on pre-scripted MAs, which are essentially
                mission assignment templates that are used to facilitate planning for
                certain repetitive response activities, and to reduce the time it takes to
                deploy federal resources. Pre-scripted MAs describe other federal
                agencies’ resources or capabilities that are commonly called upon during
                an incident response. They are intended to facilitate a more rapid delivery
                of the types of federal assistance frequently requested.

                FEMA officials said there are 223 pre-scripted MAs under development
                and listed in the operational working draft of the “Pre-Scripted Mission
                Assignment Catalogue,” which FEMA intends to publish by June 2008.
                FEMA has developed a standard operating procedures (SOP) manual for
                MAs that outlines the policies, procedures, and processes that FEMA uses
                to collaborate with other federal agencies and organizations when
                responding to disasters and intends to release an updated draft of this
                manual in March 2008.

                Overall, the process for developing pre-scripted MAs is well-established
                now and ready for use in future incidents. FEMA plans to post approved
                pre-scripted MAs to the Homeland Security Information Network (HSIN)
                to increase interagency coordination and real-time situational awareness.
                However, these pre-scripted MAs are only one of an assortment of tools
                for conducting response operations and do not, by themselves, provide a
                complete picture of FEMA’s readiness to carry out mission assignments.
                Additionally, our audit of HSIN disclosed that this network is not used
                extensively by those in the emergency management community and may
                not be the best avenue to make other federal agencies aware of pre-
                scripted MAs. 15

                Improve staffing and training (Limited) – FEMA senior management
                seems to recognize the considerable interaction and collaboration that the
                MA process requires to ensure that the process works for all players, not
                merely FEMA. It is essential to incorporate all aspects and resources of
                the process. This includes the people who administer the process, the
                processes used to deliver assistance, the governing policies, and the
                performance necessary to ensure that expectations are realized and
                missions accomplished effectively.

                The most substantial MAWG recommendation concerned the
                establishment of and investment in MAs as a program area rather than a
15
  Homeland Security Information Network Could Support Information Sharing More Effectively (OIG-06-
38, June 2006).

                        FEMA’s Preparedness for the Next Catastrophic Disaster 


                                               Page 45 

     collateral functional process or duty that only comes into play during an
     incident response. The MAWG participants see development of an MA
     program office, with dedicated full-time staff and management team, pre-
     established budget, and officially delegated authorities and
     responsibilities, as the best chance for substantial improvement in all
     aspects of the MA process.

     Effective incident response also hinges on leaders and on-scene operators
     who are trained and prepared to act. During a crisis, there is little time to
     determine staff qualifications, and it is vital that qualifications be pre-
     identified and appropriately aligned with the incident. According to the
     MAWG’s Strategic Plan, FEMA intends to develop a schedule of
     appropriate training by March 2008, which will be conducted through
     June 2008. The MAWG also plans to identify a cadre of MA managers
     and will introduce a credentialing program.

     Enhance management of mission assignments (Limited) – Managing and
     accounting for MA resources is crucial to the management of the federal
     response to an incident. The current MA data collection/information
     system, Enterprise Coordination and Approvals Processing System
     (eCAPS), was designed with a focus on the administrative aspects of
     documenting, approving, and reporting on MAs, rather than tracking the
     actual work requested and performed, or on the status and outcomes of
     missions assigned. New processes developed by the MAWG will need to
     be reflected in updated information systems. Modifications to the eCAPS
     system have recently begun that provide more user-friendly features, and
     provide a better audit trail with improved search capabilities, thereby
     reducing the likelihood of MA duplications resulting from manual
     processes.

Continuing Concerns
     Support from FEMA management will be required to implement the
     MAWG’s Strategic Plan, which calls for an infrastructure overhaul of the
     MA process. A significant investment of resources – personnel, training,
     time, and budget – will be required to begin the re-engineering efforts.
     After the revised infrastructure has been put into place, an MA program
     office will need resources to sustain the effort.

OIG Planned Work and Areas for Continuing Oversight
     We are planning to audit FEMA’s management of MAs to determine to
     what extent FEMA is:


            FEMA’s Preparedness for the Next Catastrophic Disaster 


                                   Page 46 

   •	 Establishing MA requirements and identifying appropriate 

      capabilities to fulfill those assignments; 

   •	 Coordinating and monitoring the implementation of MAs;
   •	 Ensuring that MA expenditures are verified and that procured
      property is accounted for; and
   •	 Closing MAs in a timely manner.

We will continue to collaborate with FEMA’s Disaster Operations
Directorate staff and the interagency MAWG in a consultative role to
provide independent and objective guidance and oversight in
implementing the revamped operations and infrastructure as recommended
in their Strategic Plan.

Our FY 2008 work plan also leaves room to provide audit resources, as
needed, to assess the MA process as it is being carried out in future
disasters. We will also continue to work jointly with other agencies’ OIGs
to audit and assess interagency use of, and accountability over, MAs.




      FEMA’s Preparedness for the Next Catastrophic Disaster 


                             Page 47 

Acquisition Management 





    Background
         Acquisition management is more than awarding a contract, it is the entire
         process that begins with identifying and clarifying a mission need and
         ends with the final close-out of an award. When good acquisition
         management is not in place, response capabilities are weakened, taxpayer
         money is often wasted, and the public’s trust in the government falls.

         FEMA’s acquisition function was heavily tasked in responding to
         hurricanes Katrina and Rita and suffered from several shortcomings.
         These shortcomings included a lack of pre-existing preparedness
         contracts; untrained staff; and poor planning for post-award monitoring
         and oversight.

         Post-Katrina, FEMA management has focused on developing the
         acquisition function to a level that can effectively and efficiently respond
         to another catastrophic disaster. To assess FEMA’s progress in this area,
         we reviewed the following three critical components:

            •   Have pre-disaster contracts in place
            •   Recruit, train, and retain sufficient acquisition staff
            •   Provide for post-award oversight




                FEMA’s Preparedness for the Next Catastrophic Disaster 


                                       Page 48 

Have pre-disaster              Recruit, train, and retain          Provide for post-award
contracts in place             sufficient acquisition staff              oversight




Critical Components
        Have pre-disaster contracts in place (Moderate) – Prior to Hurricane
        Katrina, FEMA had few contracts in place to be used at the time of a
        disaster. By awarding preparedness contracts prior to a disaster, FEMA
        has the time to run a full and open competition in order to ensure the best
        value to the government. Without pre-disaster contracts in place, FEMA
        is forced to award contracts on a non-competitive basis or to lesser-
        qualified vendors in order to support a prompt response after the disaster
        occurs.

        FEMA’s Office of Acquisition Management (OAM) has awarded
        approximately 27 pre-disaster response contracts, up from the 9 pre-
        disaster contracts in place before Hurricane Katrina struck. Additionally,
        approximately 70 recovery contracts have been awarded. OAM officials
        said that they used extensive market research, negotiation, and
        competition to award these contracts, which will provide goods and
        services traditionally needed in a disaster and not fully provided by state
        and local governments. FEMA has also signed a number of pre-disaster
        Interagency Agreements with other federal agencies, which will allow
        FEMA to use the contracts of these federal partners. OAM officials said
        that all FCOs now have a list of these pre-disaster agreements in a
        “disaster response contract toolbox.” However, OAM only recently
        provided us a list of those contracts despite our repeated requests.
        Consequently, we have not had the opportunity to review them and opine
        on their utility for FCOs in a disaster environment.

        OAM has also created an Acquisition Program & Planning (AP&P)
        branch, which will function as the primary link between acquisitions and
        the program areas that generate requirements, to assist with pre-disaster
        contracts.

        Recruit, train, and retain sufficient acquisition staff (Moderate) – When
        Hurricane Katrina struck, FEMA had just 35 contracting staff in place.

                 FEMA’s Preparedness for the Next Catastrophic Disaster 


                                        Page 49 

Since Hurricane Katrina, this number has grown to 162 positions
authorized, with 136 positions filled. OAM has expanded its policy office
and is upgrading its contract writing system. Additionally, FEMA has
updated its “Emergency Acquisition Field Guide,” which is designed to
define the critical elements of an emergency acquisition in plain language
so that any member of the disaster support team can understand and apply
proper procedures.

FEMA reports significantly increasing staffing of both Contracting
Officer’s Technical Representatives (COTR) and Contracting Officers.
FEMA has established a COTR Program Management Office “to ensure
COTRs have the training, support, and tools needed for effective contract
administration.” To date, more than 700 program officials have trained
and been certified as COTRs.

OAM also reports building their training initiatives to ensure contracting
staff have the necessary skills for their positions. The office has worked
with the Defense Acquisition University and the Federal Acquisition
Institute to ensure that OAM staff complete the courses necessary to meet
qualifications requirements.

Provide for post-award oversight (Modest) – Contracting responsibilities
do not end with the issuance of an award. In fact, one of the most
important aspects of the job, contract monitoring and oversight, begins
after the award has been made. A lack of post-award oversight was a
problem for FEMA in its response to Hurricane Katrina. Since then,
FEMA reports taking some important steps in improving contract
oversight.

FEMA officials said that they have developed Contract Administration
Plans (CAP) intended to improve post-award contract execution by
providing consistency in how FEMA competes, orders, and administers
task orders. CAPs outline the required levels of contractor oversight,
contract terms and conditions, performance milestones, and reporting
requirements. The CAPs are designed to balance task order competition
with the need to expeditiously make awards after a disaster. FEMA said
they believe CAPs will also foster consistent contract administration
processes for COTRs across FEMA regions. FEMA also said the
additional training and support being provided to COTRs through the new
COTR Program Management Office will contribute to better post-award
oversight.




      FEMA’s Preparedness for the Next Catastrophic Disaster 


                             Page 50 

        Continuing Concerns
                While FEMA has made progress in a number of areas and seemingly
                improved its acquisition management function, many concerns remain.
                FEMA said that many more pre-disaster contracts are in place. However,
                FEMA has not afforded us the opportunity to review them, nor have we
                been able to determine whether guidance on the use of the contracts has
                been developed and communicated to all federal, state, and local partners.
                Consequently, we cannot opine on their reasonableness or utility. FEMA
                also said that these contracts ensure fair and reasonable prices, but because
                these contracts were only recently shared with us, we have not had an
                opportunity to assess pricing and other aspects of the contracts.

                Staffing levels also remain a concern. Even though OAM has hired a
                number of contracting employees, a FEMA official said that contracting
                personnel coming in often have less than a year’s experience. This makes
                OAM’s training plans very important.

                We are also concerned about OAM’s data management, in that we have
                had difficulty getting data from OAM, and FEMA is late in submitting
                reports to Congress mandated by the Post-Katrina Act. This raises
                concerns about OAM’s data management capabilities.

                In our acquisition management scorecard published in April 2007, 16 we
                reported several areas of concern. Of those, OAM is making some
                progress in the following areas:

                    •	 Developing a full partnership with other FEMA components;
                    •	 Developing policies and procedures for comprehensive program
                       management; and
                    •	 Hiring and training a sufficient number of contracting staff.

                However, FEMA continues to show weaknesses in:

                    •	 Developing an integrated acquisition system; and
                    •	 Developing reliable, integrated financial and information systems.

OIG Planned Work and Areas for Continuing Oversight
                For the remainder of 2008, we will continue to conduct a broad body of
                work on FEMA’s acquisition functions to identify additional

16
  Semiannual Report to the Congress: October 1, 2006 – March 31, 2007 (Department of Homeland
Security Office of Inspector General, April 30, 2007) pp. 59-78.

                        FEMA’s Preparedness for the Next Catastrophic Disaster 


                                               Page 51 

improvements that FEMA can make. Specifically, we will audit FEMA’s
acquisition internal controls, workforce, and process, as well as property
management. We also plan to review a select number of 2007 disaster
contracts to assess the extent to which FEMA has improved its ability to
track, manage, and monitor disaster contracts.

The urgency and complexity of FEMA’s mission will continue to demand
effective acquisition strategies in preparing for, preventing, responding to,
and recovering from disasters. While DHS continues to build its
acquisition management capabilities in the component agencies and on the
department-wide level, acquisition management will continue to be an
important area of oversight for our office.




       FEMA’s Preparedness for the Next Catastrophic Disaster 


                              Page 52 

Conclusion and Recommendations
             FEMA has made progress in all of the areas we reviewed, although
             in some areas this progress has been limited or modest. FEMA
             officials said that budget shortfalls, reorganizations, inadequate IT
             systems, and confusing or limited authorities negatively affected
             their progress. We agree with FEMA. FEMA would also benefit
             from better knowledge management and plans for sustaining
             initiatives that are underway.

             Recommendation 1 - We recommend that FEMA conduct a
             comprehensive “needs analysis” to determine where they are now
             and where they need to be, as an agency, in terms of preparedness
             for a catastrophic disaster. This will assist FEMA with integrating
             their projects and avoiding duplicative efforts.

             Recommendation 2 - We recommend that FEMA develop and
             sustain a system for tracking progress of programs, initiatives, and
             enhancements, both planned and underway, using project
             management tools, e.g., Quad charts, Gantt charts or similar tools.
             This system would benefit FEMA by providing a means of
             increasing awareness of FEMA’s efforts and the planning behind
             them. It would also help ensure that knowledge and vision that
             may reside with the agency’s leadership is shared among staff and
             other stakeholders. For each project, a single leader accountable
             for the success of the project should be identified.

             Tracking system tools should, for each initiative within each
             preparedness area, contain information including: (1) Name of the
             project leader; (2) Status of the project, including budget, schedule,
             and where necessary, approvals from DHS and OMB;
             (3) Performance requirements or parameters; and (4) Other key
             issues, concerns, or challenges to completion of the project, e.g.,
             lack of funding or staffing, legislative changes needed, and
             cooperation of other federal agencies needed.

             Recommendation 3 - To enhance accountability and transparency,
             and to enhance the ability of key stakeholders to assist FEMA in
             achieving its mission, we recommend that FEMA provide regular
             updates regarding progress on all major preparedness initiatives
             and projects.




             FEMA’s Preparedness for the Next Catastrophic Disaster 


                                    Page 53 

Management Comments and OIG Evaluation
             FEMA provided written comments on the draft of this report.
             FEMA generally concurred with all of our recommendations and
             provided technical comments, which we have incorporated into the
             report as appropriate. (FEMA’s written comments are contained in
             Appendix B).

             Recommendations

             In response to recommendation 1, that FEMA conduct a
             catastrophic needs assessment, FEMA agreed. However, FEMA
             said they do not believe the report fully reflects the work that has
             already been done in this area, and that the organization does not
             need another over-arching assessment. They believe they need an
             opportunity to implement their new Strategic Plan and to “continue
             to take action on the remaining PKEMRA [Post-Katrina Act]
             requirements and any outstanding GAO and IG recommendations.”

             FEMA is under considerable pressure from several fronts and is
             attempting to respond to numerous mandates and
             recommendations. This supports our recommendation that FEMA
             needs to ensure that their efforts are efficient and integrated to
             avoid duplication. One way to accomplish this is through an
             agency-wide needs analysis. FEMA said their efforts are “being
             managed through the combined efforts of frequent senior staff
             meetings, working level staff meetings, and the Investment
             Working Group and the Program Analysis division of the Office of
             Policy and Program Analysis.” We remain concerned that this
             coordination does not permeate the entire organization.

             In response to recommendation 2, that FEMA develop and sustain
             a system for tracking progress of programs and initiatives, FEMA
             said they have begun instituting project management practices.
             However, the examples they provided were related to major
             acquisitions. FEMA needs to bring project management practices
             and a comprehensive project tracking system to all agency projects
             and initiatives, so that stakeholders are aware of projects and
             decision makers have solid information. FEMA claims they are
             tracking projects “through a variety of means” and that “several
             electronic systems collectively track the progress of different
             programs within the agency.” We are recommending a single,
             comprehensive tracking system for real-time visibility on projects


            FEMA’s Preparedness for the Next Catastrophic Disaster 


                                   Page 54 

and initiatives, including key indicators such as schedule, budget,
and necessary approvals.

In response to recommendation 3, that FEMA provide regular
updates regarding progress on all major preparedness initiatives
and projects, FEMA said they are already providing updates and
working on a comprehensive reporting effort. They also said they
are required to provide monthly or quarterly reports to Congress on
a number of topics. We remain concerned that these reports are
often late.

General Comments

Methodology: FEMA said they believe the metrics and
measurements used throughout the report “are too subjective and
do not reflect the considerable effort to date as accurately as they
might.” FEMA also said the draft report provides only a cursory
explanation of the methodology used to rate FEMA.

Our methodology is clearly outlined in Appendix A. The ratings
are subjective, but the rating scale and level of subjectivity are
appropriate to this high-level assessment. In response to several
questions FEMA posed in their comments, we want to again make
clear that the overall rating for each key area is not an average of
the ratings for the critical components within each area. The
overall rating is based in part on the component ratings, but also on
our broader knowledge of the key preparedness areas.

Mitigation’s Role in Preparedness: FEMA said they did not
believe the report adequately addressed the role of mitigation in
preparedness, response and prevention of catastrophic disasters.
Mitigation is an important element of the emergency management
cycle; however, mitigation falls outside the scope of our
assessment on FEMA’s ability to respond to a catastrophic
disaster.

Coordination Among Offices: FEMA said that this report provides
a stovepipe review of the nine key areas, “leaving the impression
that these are separate and disparate entities not fully coordinated.”
As an example of efforts coordinated among different areas,
FEMA provides information on two catastrophic disaster planning
efforts: the New Madrid Seismic Zone Area effort and the State of
Florida hurricane effort. In fact, we highlight both of these efforts
in the report and indicate that the efforts are coordinated among the

FEMA’s Preparedness for the Next Catastrophic Disaster

                       Page 55
Disaster Operations, Disaster Assistance, and Mitigation
Directorates.

IT Modernization: FEMA provided general comments on their
efforts to modernize IT infrastructure and systems; however, they
did not provide any specific comments on how we addressed IT
systems in the report. Our report does discuss IT systems, where
appropriate, and our office has ongoing work in this area.

Grant Programs: FEMA said that grants were only mentioned as
they related to Interoperable Communications, and that we did not
include discussion of preparedness grant programs that FEMA
provides to State and local jurisdictions to build preparedness
capabilities. We recognize and appreciate that FEMA
preparedness grants play an important role in enhancing state and
local governments’ preparedness; however, the focus of this report
was FEMA’s ability to respond to a catastrophic disaster when
state and local capabilities are overwhelmed.




FEMA’s Preparedness for the Next Catastrophic Disaster 


                       Page 56 

Appendix A
Objectives, Scope, and Methodology

                   At the request of Congress, we conducted a high-level “scorecard”
                   assessment of FEMA’s preparedness to respond to the next
                   catastrophic disaster. Together with congressional staff and
                   FEMA officials, we identified nine key areas as those most vital to
                   FEMA’s preparedness:

                        •	   Overall Planning;
                        •	   Coordination and Support;
                        •	   Interoperable Communications;
                        •	   Logistics;
                        •	   Evacuations;
                        •	   Housing;
                        •	   Disaster Workforce;
                        •	   Mission Assignments; and
                        •	   Acquisition Management.

                   Within each of the nine key areas, there are numerous critical
                   actions that need to take place before FEMA is sufficiently
                   prepared for a catastrophic disaster. To use our time and resources
                   wisely, we collaborated with FEMA officials to determine two to
                   five critical components within each key area. We:

                        •	 Conducted interviews with top FEMA officials and, in
                           limited cases, DHS officials;
                        •	 Reviewed numerous reports and testimony from our office,
                           GAO, Congress, and others regarding FEMA’s readiness
                           (See Appendix C);
                        •	 Reviewed documents provided by FEMA, including plans,
                           policies, organization charts, and self-assessments; and
                        •	 Reviewed applicable laws, such as the Stafford Act (P.L.
                           100-707), Homeland Security Act (P.L. 107-296) and Post-
                           Katrina Act (P.L. 109-295).

                   Our ratings for the nine key areas reviewed are based on a four-
                   tiered system ranging from “limited or no progress” to “substantial
                   progress.” Throughout this report, we based our ratings on the
                   following criteria:




                   FEMA’s Preparedness for the Next Catastrophic Disaster 


                                          Page 57 

Limited or No Progress: There is an awareness of the critical
issues needing to be addressed, but specific corrective actions have
not been identified.

Within this phase, interim steps include a problem analysis,
discussion of corrective actions, and development of a strategic
plan.

Modest Progress: Corrective actions have been identified, but
implementation is not yet underway.

Within this phase, interim steps include selecting corrective
actions, obtaining management approval, planning for
implementation, and securing a funding commitment from DHS
for each action.

Moderate Progress: Implementation of corrective actions is
underway, but few if any have been completed.

Substantial Progress: Most or all of the corrective actions have
been implemented.

Our ability to conduct this assessment was limited by FEMA’s
inability to provide requested documents in a timely manner.
Given the scope and limitations of our review, we did not perform
an in-depth assessment of each of the nine key preparedness areas.
We used the critical components, as well as our broader knowledge
of the key areas, to gauge FEMA’s overall progress in those areas.
For ease of understanding, we used the same rating categories as
we used to rate the critical components within each area; however,
we adapted the criteria to present a better picture of the progress
FEMA has made overall. For example, to achieve moderate
progress overall, FEMA would have to have identified and
completed more than a few corrective actions. To achieve a rating
of substantial progress overall, FEMA would have to have
completed most corrective actions in the key preparedness area.

We conducted our review between October 2007 and February
2008 under the authority of the Inspector General Act of 1978, as
amended, and according to the Government Auditing Standards
issued by the Comptroller General of the United States. Major
OIG contributors to the review are identified in Appendix D.




FEMA’s Preparedness for the Next Catastrophic Disaster 


                       Page 58 

The principal OIG points of contact for the review are Matt
Jadacki, Deputy Inspector General for Emergency Management
Oversight at (202) 254-4100 and Donald Bumgardner, Director,
Disaster Acquisition Division, Office of Emergency Management
Oversight at (202) 254-4226.




FEMA’s Preparedness for the Next Catastrophic Disaster 


                       Page 59 

Appendix B
Management Comments to the Draft Report




                         FEMA’s Preparedness for the Next Catastrophic Disaster

                                                  Page 60
                 FEMA Response to the DHS OIG Draft Report,
              “FEMA's Preparedness for the Next Catastrophic Disaster”
                             (issued March 6, 2008)



The Federal Emergency Management Agency (FEMA) appreciates the opportunity to
review and comment on the Department of Homeland Security, Office of the Inspector
General (DHS OIG) draft report “FEMA’s Preparedness for the Next Catastrophic
Disaster,” issued March 6, 2008.

FEMA agrees with the DHS OIG’s assessment that improvements have been made to all
components of the agency since Hurricane Katrina in 2005. We understand that DHS
OIG had a relatively small window of time in which to conduct their research, and as a
result did not have the opportunity to conduct an in-dept assessment of each of the nine
key preparedness areas identified. FEMA pace of improvement has been steady and we
have endeavored to utilize our resources wisely to move forward on the many
requirements we have identified or have been recommended by other entities.

While we appreciate the acknowledgement of our progress in your report we are
concerned that the metrics and measurements used throughout this report are too
subjective and do not reflect the considerable effort to date as accurately as they might.
Appendix A of this draft report provides only a cursory explanation of the methodology
used to rate FEMA. In some instances, it seems the short window available to create this
report led to a disconnect between DHS OIG’s lines on inquiry and the FEMA program
staff’s targeted responses. FEMA made every reasonable effort to meet DHS OIG’s
requests while addressing hundreds of other requests by GAO and Congress within the
same timeframes. Specific examples of our concerns are cited in this response.

FEMA appreciates DHS OIG’s recognition in the opening Executive Summary and
would like to use this report to highlight improvements. FEMA is continuously bringing
on energetic new employees and promoting experienced ones from within, updating our
IT infrastructure, improving our procurement practices, improving the quality of our
policies and guidance to our nation, conducting exercises, and actively responding to
emergencies.


Recommendations:

Recommendation 1: We recommend that FEMA conduct a comprehensive “needs
analysis” to determine where they are now and where they need to be, as an agency, in
terms of preparedness for a catastrophic disaster. This will assist FEMA with
integrating their projects and avoiding duplicative efforts.

                      FEMA’s Preparedness for the Next Catastrophic Disaster

                                             Page 61
FEMA agrees with this recommendation, but believes the report does not reflect fully the
work that has already been done in this area. Taking into account the combined lessons
learned from Katrina, and suggestions and requirements from numerous sources, FEMA
has recently completed its new Strategic Plan. This document goes to print in mid-March
2008. Even though the plan is only now going to final print it has been in place and used
by all of the FEMA directorates for the past 9 months in their development process for
program improvements. In December of 2006 FEMA published agency vision and
disaster preparedness concept of operations which has guided our actions and priorities.
In 2007 we completed 17 specific needs assessments and analysis that spanned our
business functions, logistics and communications. Those assessments have provided a
blue print for our change efforts. In the last year, we stood up a Program Analysis and
Evaluation capability for the first time in FEMA, and reinvigorated the Investment
Working Group which had been moribund in years past.

Each FEMA office has numerous projects and programs underway to improve service
and interoperability with other parts of FEMA, DHS, and our partners across the
government and in states and localities. This entire effort is being managed through the
combined efforts of frequent senior staff meetings, working level staff meetings, and the
Investment Working Group and the Program Analysis division of the Office of Policy
and Program Analysis to eliminate duplication and increase our preparedness, mitigation,
recovery, and response capabilities.

Since the landfall of Hurricane Katrina in 2005, FEMA has been the subject of dozens of
analyses, engagements, studies, and reports. Many of these reports were created by
outside entities, including DHS OIG, GAO, and Congress. DHS OIG cites a number of
these documents on pages 60-61 of this draft report. The Post Katrina Emergency
Management Reform Act (PKEMRA) specified over 250 actions for FEMA to take.

FEMA currently has over 100 open engagements with the GAO, and over 100 open
engagements with DHS-OIG. This translates to over 100 open recommendations from
GAO, and over 600 open recommendations from DHS-OIG. Many of these
recommendations are overlapping and/or complementary.

FEMA has no shortage of recommendations of improvements the agency needs to make,
and has had our capability gaps clearly spelled out. The sheer workload associated with
responding to the administrative documentation requirements of over 700
recommendations from DHS OIG and GAO is directly impacting our continued efforts to
improve FEMA. We believe another assessment or analysis is not required.

FEMA does not believe it needs another over-arching assessment. FEMA instead
believes that we be given an opportunity to implement our new Strategic Plan, and
continue to take action on the remaining PKEMRA requirements and any outstanding
GAO and IG recommendations.

                     FEMA’s Preparedness for the Next Catastrophic Disaster 


                                            Page 62 

Recommendation 2:

We recommend that FEMA develop and sustain a system for tracking the progress of
programs, initiatives, and enhancements, both planned and underway, using project
management tools, e.g.. Quad charts, Gantt charts or similar tools. This system would
benefit FEMA by providing a means of increasing awareness of FEMA’s effort and the
planning behind them. It would also help ensure that knowledge and vision that may
reside with the agency’s leadership is shared among staff and other stakeholders. For
each project, a single leader accountable for the success of the project should be
identified.

Tracking system tools should, for each initiative within each preparedness area, contain
information including: (1) Name of the project leader; (2) Status of the project, including
budget, schedule, and where necessary, approvals from DHS and OMB; (3) Performance
requirements or parameters; and (4) Other key issues, concerns, or challenges to
completion of the project, e.g. lack of funding or staffing, legislative changes needed,
cooperation of other federal agencies needed.

Prior to 2005, FEMA was not conducting large-scale acquisition programs and had no
experience with project management principals. However, in the past year we have
changed that and begun instituting project management practices. Examples of existing
and beginning Program Management Office (PMO) efforts include the Integrated Public
Alert and Warning (IPAWS) program and a new one forming is the Mt. Weather
modernization project. Each PMO is staffed with professionally trained program
managers. Future efforts will also follow this pattern. As part of our IT modernization
process, our Business Management Office is investigating ways to bring this capability to
the agency as an enterprise system.

FEMA is tracking its progress on all fronts through a variety of means. FEMA senior
staff meets several times a week (including biweekly teleconferences with all of the
Regions and satellite offices). The Investment Working Group, co-chaired by the Office
of Policy and Program Analysis and the Office of the Chief Financial Officer, manages
FEMA’s budget process and is improving our investment decision capability.

Several electronic systems collectively track the progress of different programs within the
agency. The most recent addition is the Executive Management System, currently
deployed as an active pilot program. The initial deployment of the system is tracking or
will track all of FEMA’s DHS OIG and GAO engagements and recommendations
(including tying progress to a specific program manager), legislative tasks, questions for
the record and “getbacks”, and FEMA transformation and change of administration plans.
This system will continue to evolve and allow for the tracking of other lines of business.

                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 63 

Recommendation 3:

To enhance accountability and transparency, and to enhance the ability of key
stakeholders to assist FEMA in achieving its mission, we recommend that FEMA provide
regular updates regarding progress on all major preparedness initiatives and projects.

FEMA is already actively providing these updates and is working on a comprehensive
reporting effort which will be completed in April of 2008. PKEMRA mandated FEMA
brief Congress on virtually all aspects of Preparedness on a quarterly basis. The next
briefs of the different House and Senate committees are scheduled for early May 2008.

PKEMRA also mandated FEMA provide a number of monthly and quarterly reports to
Congress, on topics including our quarterly staffing vacancies, National Capital Region
planning efforts, the disaster relief fund, disaster contracting, disaster declarations, etc.
As we continue to promulgate our national plans and guidance, including the National
Response Framework, we have updated Congress and have legislatively-mandated
updates scheduled

Finally, both from PKEMRA, at the request of Congressional committees, and on our
own initiative, FEMA continues to brief Congress on all manner of preparedness,
response, recovery, mitigation, and disaster logistics issues.


General Comments on the Draft Report:

Methodology: DHS OIG’s description of its reporting methodology should be more
comprehensive. Appendix A of this draft report provides only a cursory explanation of
the methodology used to rate FEMA. We do have the following questions and concerns
about the specifics of the report.

How did the OIG determine FEMA’s progress within each of the four ratings? What was
the benchmark measure used to grade our efforts? It is unclear as to how the IG
calculated and tabulated the ratings for the nine key areas as the summation of individual
ratings for the critical components do not always equate to the overall key area score.
For example, “Evacuations” total is Modest, but the two areas are Moderate &
Substantial). How were the ratings from the “critical components” weighted to come up
with a final score? At the exit conference, it was mentioned that it was not an average.




                       FEMA’s Preparedness for the Next Catastrophic Disaster 


                                              Page 64 

Mitigation’s Role in Preparedness: This report does not adequately address Mitigation’s
role in preparedness, response and prevention of catastrophic disasters. The four legs of
FEMA’s disaster strategy can be summarized with preparedness, recovery, response, and
mitigation—this report focuses only on the first three.

While Mitigation activities are generally thought of as occurring after the disaster,
Mitigation is quite involved in the development and management of a suitable cadre
versed in engineering, grants management, flood insurance, and public outreach, all prior
to a disaster. In addition, Mitigation manages the development of hazard mitigation plans
at the state and local level, a requirement for the receipt of certain public and mitigation
assistance grants. This is all part of being prepared for the next disaster.

Coordination Between Offices: This report provides a stovepipe review of the following
areas: Overall Planning; Coordination and Support; Interoperable Communications;
Logistics; Evacuations; Housing; Disaster (Surge) Workforce; Mission Assignments; and
Acquisition Management. Each of these areas is addressed individually, leaving the
impression that these are separate and disparate entities not fully coordinated. The report
does not address holistic coordination efforts that have been initiated by FEMA to
address catastrophic disaster operations planning.

An example of this is the Disaster Operations and Disaster Assistance Directorate’s joint
efforts in Federal Agency Catastrophic Disaster Operations Planning for two geo-specific
areas: the eight (8) State New Madrid Seismic Zone Area (NMSZ); and the State of
Florida. The NMSZ initiative addresses response planning for a catastrophic earthquake
that would address four FEMA regions involving the following eight States: Alabama,
Arkansas, Illinois, Indiana, Kentucky, Mississippi, Missouri, and Tennessee. The State
of Florida initiative involves catastrophic disaster operations response planning for a
Category 5 Hurricane making landfall on South Florida which would put most of South
Florida under 1-4+ feet of water for weeks, destroy the homes of more than 60 percent of
the population, leave 4 million people without electricity, cripple the State’s
transportation infrastructure, and have a devastating effect on South Florida’s $200
billion per year service, agriculture, and tourism industries.

These efforts provide readiness planning, technical assistance and project management to
develop a Federal Concept of Operations, and Federal Catastrophic Earthquake Plan,
Regional specific plans and individual State catastrophic disaster response plans. The
intent is to horizontally and vertically integrate multijurisdictional response plans at the
local, private sector, State, Tribal and Federal level. In fiscal years 2006 and 2007,
FEMA invested over $20,000,000 in these initiatives.

Both the NMSZ and Florida initiatives involve bottom up planning from the local to the
State level and eventually to the Federal level via scenario driven workshops. To date,
this process has involved the local and State emergency management communities, with
some involvement of the Regions and other Federal agencies through the FEMA

                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 65 

Regional Interagency Steering Committees (RISC). The planning to date at the local and
State level has been robust and helped identify the unmet requirements that will need to
be addressed by Federal level planning. The intent is to bring all of the areas addressed
in the OIG report into a cohesive and robust Federal response to all-hazards through this
scenario-driven planning process.

IT Modernization: As FEMA continues to modernize its IT infrastructure and systems,
we have identified budget shortfalls, and experienced issues with several information
systems. We continued to refine organizational structure, and welcome the inclusion of
the DHS Office of the Chief Information Officer (OCIO) in a complete assessment of IT
requirements, capabilities, and readiness, as some program offices have reported IT
limitations. As we move forward, our newly formed Customer Advocate Branch will
assist program offices in identifying and documenting their mission needs, concepts of
operations, business requirements, and lifecycle funding, and in conveying those
requirements through formalized capital and operational planning processes.

Grant Programs: Grants are only mentioned as they are related to Interoperable
Communications. There is no mention of the preparedness grant programs (SHSP,
UASI, etc.) that we provide to State and local jurisdictions to build preparedness
capabilities (although the IG does mention the current audit of our grant programs) which
have a direct bearing on the amount of support FEMA may have to provide in a disaster.
There is a direct correlation between the ability of state and local governments to be
prepared and FEMA’s success in being able to support them. The report has no mention
of this dynamic. This removed a key aspect of FEMA’s preparedness strategy from
consideration in this analysis.

Comments on the Draft Report by Section:

Table of Contents:

(Disaster Operations) Table of Contents: MERS Mobile Emergency Resource Response
Support

P. 6: (Logistics) 

FEMA requests additional clarification on DHS OIG’s methodology for determining 

progress. Was the methodology same across all reviewed areas? What was it based on?



P. 13: (NPD) 

Do the evaluation criteria represent overall progress or do they represent progress in 

implementing the plan of action? 


This report states the “prototype assessment” (NPS) will not progress because it has “a
small budget, no separate appropriation and did not receive the level of staffing

                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 66 

requested”. This is factually inaccurate. To date, NPD has spent almost $5 million on
the development of this effort.

P. 16: (NPD) 

Community Preparedness Division: Enhance community preparedness (Moderate) – 

Since 9/11, there has been increased recognition of the role citizens play in protecting the 

homeland and supporting first responders. After Hurricane Katrina, the White House 

recommended that “DHS should make citizen and community preparedness a National 

priority.”1 Implementation of National Priority 8, “Community Preparedness: 

Strengthening Planning and Citizen Capabilities,” is the responsibility of the Community 

Preparedness Division (CPD) of the NPD. 


Three of CPD’s community preparedness Initiatives are:
• Assessing and strengthening community preparedness;
• Leading strategic coordination and integration of community preparedness efforts; and
• Initiating partnerships for preparedness research.

A primary goal of CPD is to ensure that community preparedness is included in a
consistent way in policy, guidance, training, and exercises. The inclusion of citizen
preparedness as a national priority was a significant step. This is an ongoing challenge
that requires actively seeking out “points of cooperation” and educating DHS and FEMA
staff on the significant value of community preparedness and planning through the
network of Citizen Corps Councils.

Citizen Corps was launched in 2002 as part of the USA Freedom Corps initiative and has
grown to include a nationwide network of over 2,300 State, territorial, tribal, and local
councils. Citizen Corps’ mission is to bring government and community leaders together
in all-hazards community preparedness, planning, mitigation, response and recovery. In
addition, State and local preparedness is supported by national Citizen Corps Partner
Programs and Affiliates that provide specific training and resources for citizens. CPD is
tasked with coordinating the Citizen Corps initiative at the federal level. CPD is
developing and providing national guidance, tools, and training for Citizen Corps
Councils to support community preparedness and resiliency. CPD is also and
strengthening the inclusion of community based planning in FEMA guidance through the
new FEMA Integrated Planning System.

P.21 (Disaster Operations)

Critical Components, 2nd Paragraph: “FEMA officials also said that it has not been
decided which DHS component will lead the effort to integrate strategic, concept, and
operation planning to ensure consistency and interoperability.” This statement is
incorrect. The DHS Operations Coordination Directorate has responsibility for strategic
level planning, whereas FEMA coordinates interagency and intergovernmental CONOPS
and operational planning.

                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 67 

P.22 (Disaster Operations) 

1st Paragraph: Please capitalize “FEMA Administrator” 


P.22 (Mitigation)

The broad description of an FCO’s execution of Stafford Act responsibilities subsequent
to a Presidential declaration fails to mention the provision of Mitigation programs.

       “-…the President appoints an FCO to coordinate federal support in response to
       and recovery from emergencies and major disasters. The FCO represents the
       FEMA administrator in the field to discharge all FEMA responsibilities for the
       response and recovery efforts underway.”

To ensure Congress is aware of the FCOs’ mitigation responsibilities, we recommend the
following edit in the last line of the sentence:

       “-…all FEMA responsibilities for the response, recovery and mitigation
       programs.”

P.24 (OCC and Disaster Operations)
Interoperable Communications: In this section, FEMA is rated on progress to “Achieve
coordination among all DHS components charged with improving interoperable
communications.” This is one of our lowest scores and does not reflect the fact that the
issue is a shared one with the Office of Emergency Communications and the Science and
Technology Safecom program. FEMA’s communications equipment IS interoperable
across the Department and with our state and local partners. However, DHS, not FEMA,
is primarily responsible for this coordination across the Department on this issue. This
point was raised at the Exit Conference. FEMA requests that this distinction be made in
this report.

We also suggest including this statement incorporation in the final report after last
paragraph… “are an equal or greater challenge.”

       “FEMA is developing disaster emergency communications policies and
       procedures to facilitate effective emergency management, operability, and
       interoperability during catastrophic events. However, achieving effective
       coordination among all DHS components specifically charged with improving
       interoperable communications remains difficult. Each organization continues to
       operate independently within the limits of its own authorities established during
       the DHS reorganization. If FEMA is charged with coordinating among all of
       DHS, it needs specific authority to coordinate with and direct DHS components
       providing emergency communications during disasters to achieve substantial
       progress in this critical area.

                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 68 

P. 27 (Disaster Operations) 

1st Paragraph: Mobile Emergency Resource Response Support (MERS) 


2nd Paragraph: FEMA has also created the Disaster Emergency Communications Office
Division and intends to be an informed and engaged advocate for disaster emergency
communications issues and the communications needs of emergency responders.


P. 28 (Disaster Operations) 

1st Paragraph: Mobile Emergency Resource Response Support 


P. 29 (Logistics)
FEMA strongly disagrees with the progress indicator and does not understand basis for
ranking. During Hurricane Katrina FEMA Logistics (formerly part of Disaster
Operations) had little to no tracking capabilities. FEMA now has logistics tracking
capabilities in all 10 Regions, and continues to improve our capabilities.

P. 30 (Logistics) 

Statement Begins: “Prior to 2004, FEMA had invested in multiple systems…” – this 

statement is incorrect from a logistics program. It was not until after 2004 (see below) 

did Logistics invest in “inventory and supply chain management”. What system was 

DHS OIG referencing?


2nd Paragraph: FEMA recommends adding, after first sentence, that the system’s pilot
was originally set to be tested in 2005, but was postponed upon Hurricane Katrina’s
landfall. The pilot system was rolled out in February 2006.

Sentence beginning with: “Currently, the TAV system is able to track the
movement……”Big 8” commodities: water, emergency meals…” This is factually
incorrect and FEMA recommends replacing with :

       “Currently, the TAV system is able to track the movement of more than 200 types
       of commodities, with a primary focus on the “Big 7” commodities of water,
       emergency meals (MREs), blue roof plastic sheeting, tarps, cots, blankets and key
       assets including emergency generators and temporary housing units.”

Sentence reading “However, FEMA personnel said that there are many gaps in the
system” – this is an unsubstantiated comment and we have no basis by which to judge its
merits. What specific gaps are being referred to? Recommend it be deleted.

P. 31 (Logistics)




                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 69 

Last line of 2nd full paragraph: “FEMA personnel said they did have supplies pre-
positioned during the 2005 hurricane season, but the quantities were insufficient and
delivery was not timely.” FEMA recommends replacing with:

       “FEMA staff interviewed stated they did have supplies pre-positioned during the
       2005 hurricane season, but the quantities pre-positioned were never intended to
       sustain a catastrophic disaster. The main problem experienced during Katrina was
       “reach-back” capability to acquire large quantities of sustainment commodities
       once stored stocks were depleted.”

Sentence reading: “LMD estimated that to pre-position commodities in the 11 hurricane
prone states alone would cost $350 million.” FEMA recommends adding this footnote:

       “This figure includes estimated cost for commodities in Regions I, II, III, IV, &
       VI and transportation costs in region IV & VI”

Sentence reading: “Instead, FEMA is increasing its emphasis on identifying strengthen
relationships….and the General Services Administration (GSA).” FEMA requests
adding that we are strengthening our relationships with the private sector.

Sentence reading: ““It has set a goal of meeting 100% of emergency requirements within
72 hours of an event.” This statement is incorrect. Our planning factors are based on
support for “1 million people within first 72 hours with life-saving commodities, food
and water.”

P. 32 (Logistics) 

Under Continuing Concerns: 

Statement Reads “Logistics has made progress in a number of areas, but still needs to 

develop standardized policies and procedures, effective internal controls and sufficient 

funding and resources.” FEMA recommend deleting last portion. Logistics has 

sufficient funding and resources to accomplish its mission. 


P. 33 (OCC)
Evacuations: There is a substantial disconnect between the overall score for evacuations
(modest) and the sub-scores for the gap analysis program (moderate) and the gulf coast
mass evacuation capability enhancement initiative (substantial). DHS OIG expressed
concern that several offices within FEMA had responsibility for evacuations without an
“overall strategy” for evacuations. FEMA does not have the overall responsibility for
evacuations, State and Local governments do and to imply otherwise exceeds FEMA’s
statutory authority. If this were a central concern of the DHS OIG’s and the basis for
scoring FEMA in this area, the DHS OIG should have made it an explicit “critical
component.” (According to the Executive Summary, the DHS OIG collaborated with
FEMA to come up with 2 to 5 critical components within each area.) Of the critical
components that were listed under Evacuations, FEMA received some of its best scores

                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 70 

in the entire report; yet, the overall score is one of FEMA’s worst. It would seem that,
even considering the DHS OIG’s concerns overall centralized responsibility for
evacuations, FEMA’s scores in these two critical components would be illustrative of
FEMA’s progress in this area and lead to a better overall score. Furthermore, the DHS
OIG comments that “it was difficult to gain a clear picture of FEMA’s progress” in this
area. It appears DHS OIG equated the difficulty with gaining a clear picture with only
modest progress by FEMA. This negative assumption is problematic given the progress
FEMA demonstrated in the two critical components that the DHS OIG was able to
evaluate.

P. 33-36 (Disaster Assistance) 

Evacuations: FEMA would like to make DHS OIG aware of two initiatives under 

development that will greatly improve our evacuation management capabilities: the Mass 

Evacuee Support Planning initiative and a mass evacuation tracking capability. 


The Mass Evacuee Support Planning initiative, which began in late 2006, is being
developed concurrently with the Mass Evacuation Incident Annex to the NRF, the
NMETS (described above), National Shelter System enhancements, and other related
mass care improvements. The Mass Evacuee Support Planning initiative focuses on
developing strategies and guidelines for support of displaced disaster victims through
development of planning guidance and a Host-State Evacuee Support Plan template.
These planning efforts will enhance operational effectiveness to provide recovery
assistance to individuals and households, as well as public assistance to State and local
governments in the event of an extraordinary or catastrophic disaster. To ensure the
guidance and template realistically address State concerns and operational perspectives,
the template will be created and refined from host-State evacuee support plans developed
in select States. The host-State evacuee support plans are developed through workshops
that employ realistic catastrophic scenarios and consequence estimates which drive
discussion and planning, and ultimately the creation of functional, integrated evacuee
support plans.

The States which are participating in development of initial model plans include:
Arkansas, Georgia, Tennessee, and Oklahoma – all of these states provided significant
evacuee support following Hurricane Katrina. Two states have held Evacuee Support
Planning Workshops: Georgia, Aug 1 - 3, 2007; and Arkansas, Sept 11 - 13, 2007 (held
in conjunction with the New Madrid Seismic Zone Catastrophic Planning Workshop).
Tennessee’s workshop will be the week of March 17, 2008.

FEMA is also developing a mass evacuation tracking capability that is a tool to support
the Mass Evacuation Incident Annex to the NRF. The goal is to provide a single national
system to support multi-state, state-managed, or local evacuation operations. FEMA
expects to be able to test this new capability this spring. A key aspect of the capability
will be protection of evacuee information. The capability will is being developed in a
way that will enable it to support the management of congregate care operations.

                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 71 

P. 37-41 (Disaster Assistance)
Housing: FEMA has continued to build its partnerships with other Federal, State, local,
and volunteers as relates to housing. This is demonstrated in the coalition-based
approach set forth in the National Disaster Housing Strategy. It is also exemplified in our
successful execution of the interagency agreement (IAA) with HUD to establish the
Disaster Housing Assistance Program, a temporary housing rental assistance and case
management program for identified individuals and households displaced by Hurricanes
Katrina and Rita. This model for providing additional and sustainable housing resources
through HUD is also being evaluated for use in future events.

In the first paragraph of the Background subsection on P. 37 and again on P. 41, the OIG
indicates that part of FEMA’s mission is to “transition those still in need to more
permanent forms of housing.” This does not accurately reflect FEMA’s disaster housing
responsibilities. FEMA’s mission is to assist State and local governments to ensure
displaced persons are sheltered and to transition those still in need to post-disaster interim
housing. When the recovery process transitions to long-term, permanent housing needs,
FEMA has worked with other federal agencies, namely HUD, to provide critical housing
and community development resources to aid state, local, and tribal in longer-term
disaster recovery efforts.

In the second paragraph of this Background subsection, the OIG indicates that housing
assistance may include semi-permanent, or permanent construction. Given that this
paragraph begins with a description of the situation after Hurricane Katrina, it would be
important to emphasize that FEMA was first provided the authority to provide housing
assistance in the form of semi-permanent, or permanent construction by the Post Katrina
Emergency Management Reform Act.

The third paragraph of the Background subsection discusses a need for improved
communication with state and local governments. It is our view that the core issue is that
FEMA needs to do a better job of communicating with state and local governments about
what they can expect FEMA assistance to provide after a disaster.

On P. 38, under the subsection Critical Components, DHS OIG indicates that “FEMA did
not have a plan in place to deal with the unprecedented movement of displaced
evacuees”. This statement over-states FEMA’s roles and authorities for evacuations prior
to the passage of the Post Katrina Emergency Management Reform Act. Additionally,
FEMA had assisted the State of Louisiana and its localities to develop the Southeast
Louisiana Catastrophic Hurricane Plan. It would be more accurate to say that adequate
plans were not in place at the Federal, state, or local level to deal with the unprecedented
movement of displaced evacuees from Hurricane Katrina.

P.40, under the subsection Strengthen state and local commitment to house affected
citizens, the DHS OIG expresses concern over the lack of resources to exploit all

                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 72 

available existing dwellings. We would like to make the DHS OIG aware of the joint
HUD-FEMA Housing Portal initiative. This portal will provide housing information in a
consolidated format accessible to disaster victims and FEMA housing staff. FEMA and
HUD have reached an agreement for the development, management, operation, and
security of a secure connection between HUD's National Housing Locator System
(NHLS) and FEMA's Housing Portal. Connecting these systems will provide an internet-
based website to assist individuals and families in finding rental housing following a
Presidentially declared disaster. This connection will also make HUD’s considerable
array of rental resources available to FEMA housing personnel. Network/cyber security
issues must be resolved to permit completion of this FEMA-HUD joint effort.


P. 40 (OCC)

Please capitalize “Administrator” in last paragraph on P. 40. 


P. 42 (OCC)
Disaster Surge Workforce: FEMA does not understand how DHS OIG calculated the
overall score for Disaster (Surge) Workforce. The average of the scores for the two
critical components that were evaluated is higher than the overall score. If the issues
addressed in the OIG’s “Continuing Concerns” for this area were important enough to
impact the overall score, they should have been made explicit “critical components,” so
that FEMA could have tailored its responses accordingly in the limited response time
available.

P. 42-45 (NPD)
Disaster Surge Workforce: EMI is working with the Office of Disaster Reserve
Workforce, FEMA Cadre Managers, Region Training Managers, and FEMA Program
Offices to develop and maintain standardized Position Specific Task Books,
Credentialing Plans, and a training and exercise curriculum for the Disaster Reserve
Workforce that is aligned with the Position Task Books and Credentialing Plans. EMI
has completed the Position Task Books for the Joint Field Office and is moving forward
on the Position Task Books for the Regional Response Coordinating Centers and
National Response Coordinating Center. Credentialing Plans are completed for the
Federal Coordinating Officer cadre and Environmental and Historical cadre. EMI is
working with the remaining cadres to develop their credentialing plans. To meet the
training needs, EMI currently has a series of courses under development for JFO
leadership as well as the various support functions. These new courses are being made
available starting in April, 2008.

P. 42 (Office of Management)
“Disaster (Surge) Workforce”
Clarification of terminology: The “surge” workforce is the capacity required beyond the
base reservist level in order to meet the operational requirements for a catastrophic event.
The “reserve” workforce is the intermittent employees that are deployed to work disasters

                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 73 

on an ongoing basis and with the exception of the “generalist” position are not considered
“surge”.

FEMA’s Strategic Human Capital Plan (SHCP) is in final review and concurrence. Once
all appropriate concurrences have been obtained, comments or concerns addressed, and
appropriate modifications made, the report will be forwarded DHS/OMB and to Congress
by April 15, 2008. At that point, the SCHP will also act as the guiding force behind
critical recruitment, staffing, and retention activities for the FEMA workforce.

SCHP updates will lay out the specific strategies for development of a surge capacity
force. Strategies for this workforce will be developed in coordination with FEMA’s
Disaster Reserve Workforce Program Management Office.

FEMA has implemented recommendations from our Disaster Reserve Workforce
(referenced on pg 44 of the draft report), including:

   	 Establishing the Office of the Disaster Reserve Workforce with the centralized
      focus to develop, deploy and support a professional Disaster Reserve Workforce;
    Developing implementation plans for specific assessment recommendations;
    Developing proposed legislative language and the costs associated with
      implementing those additional authorities.
   	 Identifying internal Human Capital policies to be changed and developing the
      plans to achieve the changes (e.g., allowing reservists to accrue and use sick leave
      while deployed);
   	 Preparing and implementing an interim plan to identify additional surge capacity
      for the 2008 hurricane season and to address requirements in Section 624 of
      PKEMRA;
   	 Completing Phase I enhancements to the Automated Deployment Database with a
      new server and software that will improve reporting capabilities and create
      interactive processes for both managers and reservists; and
   	 Submitting budget requests for FY 2010 to support the new more robust program
      requirements (i.e., the earliest budget cycle in which this can be done).


P. 42 (Disaster Operations) 

1st Paragraph, FEMA recommends adding: “FEMA struggled to provide adequate 

numbers of staff in response to Hurricane Katrina and did not have the automated support 

needed to deploy over 5,000 disaster personnel…” 


2nd Paragraph, FEMA recommends adding: “The Post-Katrina Act also requires a plan to
establish and implement a surge workforce, including an adequate…”

P. 44 (Mitigation)


                     FEMA’s Preparedness for the Next Catastrophic Disaster 


                                            Page 74 

The report states a recommendation of the contractor study to reduce FEMA’s cadres
from 23 to 9. This is not an accurate statement of the recommendation.

P. 45 (Disaster Operations)
 5th Bullet: “Training regional strike teams as a unit and equip and staff these teams;”
As required in the Post-Katrina Act, FEMA is developing the next generation of rapidly
deployable interagency emergency response teams, which the Post–Katrina Act referred
to as strike teams, and FEMA has named Incident Management Assistance Teams
(IMATs). These teams will coordinate the initial Federal response; support the emergent
needs of State and local jurisdictions; possess the capability to provide initial situational
awareness for Federal decision-makers; and support the initial establishment of a unified
command. These teams will ultimately provide the three national-level response teams
and regional-level emergency response “strike” teams. One National IMAT is currently
operational in the National Capital Region, and FEMA plans to stand up three Regional
IMATs by summer 2008.

P. 46-49 (Disaster Operations and NPD)
Mission Assignments: The draft report implies FEMA did not begin to re-engineer the
processes, relationships, and resources involved in management of Mission Assignments
(MAs) until November 2007. This process was initiated in spring 2006 when FEMA
developed revised guidance for Pre-Scripted Mission Assignments (PSMAs) and worked
with the Department of Defense and other Federal Agencies to improve existing PSMAs.
Both FEMA and the Department spent months of time and dedicated manpower prior to
the 2007 hurricane season to improve the MA process and the development of PSMAs
involving other Federal Agencies. A revised manual for MAs resulted, and was the basis
of improvements from November 2007 forward.
FEMA also embarked on a robust interagency MA training program for Regions and
other Federal agencies in Spring 2006. This considerably improved the interagency
understanding of Mission Assignments. The report states that “MA policies, procedures,
training, staffing, and funding have never been fully addressed by FEMA, creating
misunderstandings among federal agencies concerning operational and fiduciary
responsibilities.” FEMA recognized this as a problem and started addressing it in 2006.
The categorization that “Limited or No Progress” on the P. 46 dashboard misrepresents
the efforts to address this issue and the progress made.

EMI is developing an online independent study course, Mission Assignment Overview
IS-293 to address the basic MA process for anyone who may be involved in the MA
process. FEMA anticipates deploying the course by July, 2008.

EMI offers a two-day course, Orientation to Mission Assignments, for the FEMA
Regional Interagency Steering Committee which is comprised of other Federal Agencies
and State and Tribal staff. The purpose of this course is to provide an overview of the
MA process for FEMA's various disaster partners.


                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 75 

EMI delivers an additional course, Introduction to MA Processing E347, for FEMA
Operations Section Chiefs, Mission Assignment staff and other JFO leadership. The
purpose of this course is to develop in-depth skills for the MA process.

P. 48 (Disaster Operations) 

Mission Assignments: 1st Sentence: Comment – There are currently 223 PSMAs under 

development listed in the draft PSMA Catalogue – Operational Working Draft. The 

intention is to publish the current drafts in this catalogue by June 2008. 


FEMA developed a Standard Operating Procedures (SOP) manual to explain and
streamline the process for issuing MAs. The MA SOP outlines the policies, procedures,
and processes that FEMA uses to interact and coordinate with other Federal Departments
and Agencies and organizations when responding to disasters. Plans are to release an
updated “Coordinating Draft” of the MA SOP in March 2008.

P.49 (Disaster Operations) 

4th Paragraph: FEMA recommends editing to read, “We will continue to collaborate with 

FEMA’s Disaster Operations Directorate staff and the interagency…” 


P. 50 (Grants)

Under “Acquisition Management, Background”, 1st sentence, the word “grant” should be 

removed. The awarding of a grant is not part of the acquisition management process. 

They are separate processes. 



P.50-53 (Office of Management)

Acquisition Management: Figure 1 in the Executive Summary assesses Acquisition 

Management as “Modest/Moderate.” However the narrative on P. 50, (paragraph three, 

sentence two), states that “modest progress has been made overall…” It is recommended 

that these assessments be reconciled and made consistent as no lower than 

“modest/moderate.” 


The assessment on P. 52 of the third criticized component under Acquisition
Management, namely, “provide for post-award oversight,” does not adequately recognize
the robust Contracting Officer’s Technical Representative (COTR) program that FEMA
put in place last year. The COTR program is mentioned in the draft report under the
second critical component, “recruit, train, and retain sufficient acquisition staff,” but
primarily from a staffing perspective. The COTR program will significantly bolster post-
award oversight as well.

FEMA created a COTR Program Management Office (PMO) in May 2007 to implement
the training, support, and tools needed for effective contract administration. The FEMA
COTR PMO provides Agency-wide oversight, accountability and operational
effectiveness of the Agency’s COTRs. This program has also improved the

                     FEMA’s Preparedness for the Next Catastrophic Disaster 


                                            Page 76 

competencies of its COTRs, and has thereby improved the quality of work performed by
them. Most recently FEMA requested funding to develop its COTRs in a tiered structure
that goes beyond the DHS-required forty hours of annual training. By tiering the COTRs
at levels I, II, and III, FEMA will be able to tailor a COTR’s competencies and
development to the level of program he or she will be assigned to support. This will
improve both the pre- and post-award contracting activities. The COTR tiered
certification structure represents an investment in the “New FEMA” by supporting the
transformation of the current workforce to a highly skilled and effective contract
management program. Based on this, FEMA considers this component as having
moderate progress made.




                     FEMA’s Preparedness for the Next Catastrophic Disaster 


                                            Page 77 

Appendix C
Selected Reports

      Department of Homeland Security Office of Inspector General

                   A Performance Review of FEMA’s Disaster Management Activities in
                          Response to Hurricane Katrina (OIG-06-32, March 2006).

                   Fiscal Year 2008 Annual Performance Plan.

                   Homeland Security Information Network Could Support Information
                         Sharing More Effectively (OIG-06-38, June 2006).

                   Major Management Challenges Facing the Department of Homeland
                         Security (OIG-08-11, November 2007).

                   Semiannual Report to the Congress: October 1, 2006 – March 31,
                         2007.

      Government Accountability Office

                   Actions Needed to Clarify Responsibilities and Increase Preparedness
                          for Evacuations (GAO-07-44, December 2006).

                   Observations on DHS and FEMA Efforts to Prepare for and Respond
                         to Major and Catastrophic Disasters and Address Related
                         Recommendations and Legislation (GAO-07-835T, May
                         2007).

      Other Documents

                   A Failure of Initiative: Final Report of the Select Bipartisan
                          Committee to Investigate the Preparation for and Response to
                          Hurricane Katrina (United States House of Representatives,
                          February 2006).

                   Hurricane Katrina: A Nation Still Unprepared (U.S. Senate: Special
                          Report of the Committee on Homeland Security and
                          Governmental Affairs, S. Rept. 109-322, 2006).

                   The Federal Response to Katrina: Lessons Learned (The White
                         House, February 2006).


                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 78 

Appendix D
Major Contributors to This Report

             Department of Homeland Security – Office of Inspector General
                   Office of Emergency Management Oversight

                   Donald Bumgardner, Lead Director
                   Norman Brown, Director
                   Gina Smith, Director
                   Amy Hall, Project Manager
                   Modupe Akinsika, Supervisory Auditor
                   Moises Dugan, Supervisory Program Analyst
                   Polin Cohanne, Program Analyst
                   Trudi Powell, Auditor
                   Katherine Roberts, Program Analyst
                   Lori Smith, Auditor




                   FEMA’s Preparedness for the Next Catastrophic Disaster 


                                          Page 79 

Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative and Intergovernmental Affairs
                      Chief Privacy Officer

                      Federal Emergency Management Agency

                      Administrator
                      Assistant Administrator
                      Deputy Administrator, National Preparedness Directorate
                      FEMA GAO/OIG Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                      FEMA’s Preparedness for the Next Catastrophic Disaster 


                                             Page 80 

Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline
To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
